<html>
<title> - INCREASING THE FUNCTIONALITY OF POST-9/11 GI BILL CLAIMS PROCESSING TO REDUCE DELAYS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              INCREASING THE FUNCTIONALITY OF POST-9/11 

             GI BILL CLAIMS PROCESSING TO  REDUCE DELAYS
=======================================================================


                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, FEBRUARY 14, 2013

                               __________

                            Serial No. 113-4

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
79-939                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           February 14, 2013

                                                                   Page

Increasing The Functionality of Post-9/11 GI Bill Claims 
  Processing To Reduce Delays....................................     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
    Prepared Statement of Hon. Flores............................    29
Hon. Mark Takano, Ranking Minority Member, Subcommittee on 
  Economic Opportunity (EO)......................................     1
    Prepared Statement of Hon. Takano............................    29

                               WITNESSES

Michael Dakduk, Executive Director, Student Veterans America 
  (SVA)..........................................................     4
    Prepared Statement of Mr. Dakduk.............................    30
Kim Hall, Veterans Program Administrator, Humboldt State 
  University, Vice President, National Association of Veterans 
  Program Administrators (NAVPA).................................     5
    Prepared Statement of Ms. Hall...............................    31
Hayleigh Perez, Students Veterans Advocacy Group.................     7
    Prepared Statement of Ms. Perez..............................    33
Hon. Roger Baker, Assistant Secretary for Information and 
  Technology, U.S. Department of Veterans Affairs................    21
    Prepared Statement of Hon. Baker.............................    36
    Accompanied by:

      MG Robert M. Worley II, USAF, (Ret.), Director, Education 
          Service, Veterans Benefit Administration, U.S. 
          Department of Veterans Affairs

                        QUESTIONS FOR THE RECORD

Letter From: Hon. Bill Flores, Chairman, Subcommittee on Economic 
  Opportunity, To: The Hon. Eric Shinseki, Secretary, U.S. 
  Department of Veterans Affairs.................................    40
Post-Hearing Questions for Veterans Benefits Administration (VBA) 
  and VA's Office of Information and Technology (OIT)............    42


INCREASING THE FUNCTIONALITY OF POST-9/11 GI BILL CLAIMS PROCESSING TO 
                             REDUCE DELAYS

                      Thursday, February 14, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Runyan, Coffman, Takano, 
Brownley, Titus, and Kirkpatrick.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning. I want to begin by welcoming each 
of our new Members, especially our Ranking Member, Mr. Takano, 
to the Committee.
    I also want to publicly thank Mr. Takano for agreeing to 
become an original co-sponsor of legislation which I have 
introduced that will mandate the contents of the Transition 
Assistance Program or TAP as we know it.
    I realize everyone introduced themselves at the Full 
Committee organizational meeting, but I think it would be--
well, never mind. Okay. We have got one that we can introduce.
    With that said, I would now like to recognize the 
distinguished Ranking Member.
    I will just introduce Mr. Coffman since we only have one 
other Member to introduce.
    So I will open the floor for Mr. Takano's remarks.
    [The prepared statement of Hon. Flores appears in the 
Appendix]

             OPENING STATEMENT OF HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman.
    Good morning. I would like to thank everyone for joining us 
today. And I would like to thank our witnesses for taking time 
to testify and answering our questions.
    Chairman Flores, congratulations on being the new 
Subcommittee on Economic Opportunity Chairman. I look forward 
to working with you and to helping our veterans and their 
families across our country.
    As our country begins to reduce operations in the Middle 
East and bring more of our troops home, we will need to have 
the right programs to address their needs.
    We have spent $263 million on the long-term solution and 
many questions still remain regarding the system's 
effectiveness, its completion, and our return on investment.
    The system does not yet process all claims from beginning 
to end and there is quite a bit of human intervention necessary 
to complete claims.
    When the Veterans Administration first began processing 
claims with a short-term solution, it took about 45 minutes to 
process an original claim. Years later, with millions of 
dollars spent, it takes about the same time to process an 
original claim.
    I do not see the anticipated gains that were visualized 
when the VA and SPAWAR came here to our Subcommittee and 
testified before us. As always, we are open to ideas on how to 
improve this custom-designed system.
    Besides the cost and problems with the LTS, we need to know 
where completion of the LTS ranks for the VA. Is the LTS first 
on their IT priority list or has it now tumbled to the bottom 
of the list?
    I hope the VA came prepared today to discuss where they are 
in completing the LTS and what will be the remaining cost.
    I know Congress has made some changes to the GI Bill that 
required the VA to pivot from their original plan to 
accommodate midstream changes. I would like to know the impact 
of these congressional changes so that we have a complete 
picture of what has transpired since we began working on the 
LTS.
    The colleges and universities are reporting a number of 
issues with the system. I know that off-ramp problems have been 
an issue and there may be a simple solution to address the over 
80 reasons that off-ramps occur.
    I look forward to what the NAVPA has to say about how we 
can streamline payments to the colleges. I hope we can figure 
out how we can streamline and improve the functionality of LTS 
that is so fundamental to veterans for their education.
    This was the promise of the act to them when it became law 
under Public Law 110-252 and it is our priority now as Members 
of this Subcommittee.
    I remain very interested to hear from the VA the details of 
how the provisions that have been implemented are performing, 
how soon additional functionality will be implemented and what 
will be the means for reducing processing times and providing 
improved services for veterans.
    Mr. Chairman, thank you for scheduling this hearing and I 
look forward to the testimony and discussion we will have 
today.
    [The prepared statement of Hon. Takano appears in the 
Appendix]

    Mr. Flores. I thank Mr. Takano.
    My thanks to each of the Members, and I am looking forward 
to a productive and bipartisan 113th Congress.
    We are here today to review development and implementation 
of the computer system used to process Post-9/11 GI Bill 
claims. And so a little history is in order.
    In the run-up to the passage of the new program, VA stated 
unequivocally that the system used for decades to process 
Montgomery GI Bill claims would not be able to handle the more 
complex Post-9/11 program. So Congress authorized $100 million 
to develop a new system, what is now called the long-term 
solution or LTS.
    Since the Post-9/11 GI Bill became law, this Subcommittee 
has held at least seven hearings on the program including the 
new LTS. Until recently, our understanding was that the system 
was being developed to handle all Post-9/11 claims beginning 
with an original claim through supplemental claims.
    We now understand that the major development effort has 
focused on automating supplemental claims which compromise the 
bulk of the interactions between the VA, the students, and the 
schools.
    I think in terms of a strategy, that was the proper 
decision and I applaud the VA for that decision. That strategy 
has resulted in over 40 percent of supplemental claims being 
processed without human intervention, but, like most things, it 
also had negative results because that decision left original 
claims processing relatively un-automated.
    As a result, an original claim still takes about 45 minutes 
to process, a time little changed since 2009. In short, we are 
supportive of VA's efforts related to the LTS and our focus 
today is looking towards the future and to finish the full 
implementation of LTS.
    Without making the system and its information more 
accessible to veterans and schools, it is not complete.
    I would add to that the ability to provide a robust analyst 
function to enable the VA and Congress to make better informed 
decisions on the education and training benefits in the future.
    VA has now spent about $236 million on LTS and without 
adding such functions, it would be like buying a luxury car 
without air conditioning, heated seats, and a satellite radio.
    As our witness from the NAVPA says in her testimony, LTS 
must continue to evolve so that it is able to process more 
complex claims and changes.
    I now invite our first panel to the table, and they took 
the initiative to be there already.
    With us today are Mr. Michael Dakduk, I am not going to get 
that correct, but I am trying, Executive Director of Student 
Veterans of America; Ms. Kim Hall, Vice President of the 
National Association of Veterans Program Administrators; and 
Ms. Hayleigh Perez from the Student Veterans Advocacy Group.
    We welcome each of you. And just a reminder, you will have 
five minutes to summarize your statement.
    Let's begin with Mr. Dakduk.

   STATEMENTS OF MICHAEL DAKDUK, EXECUTIVE DIRECTOR, STUDENT 
    VETERANS OF AMERICA, (SVA); KIM HALL, VETERANS PROGRAM 
   ADMINISTRATOR, HUMBOLDT STATE UNIVERSITY, VICE PRESIDENT, 
    NATIONAL ASSOCIATION OF VETERANS PROGRAM ADMINISTRATORS 
    (NAVPA); HAYLEIGH PEREZ, STUDENT VETERANS ADVOCACY GROUP

                  STATEMENT OF MICHAEL DAKDUK

    Mr. Dakduk. Thank you, Chairman Flores, Ranking Member 
Takano, and distinguished Members of the Subcommittee.
    Thank you for inviting Student Veterans of America to 
testify and address the Subcommittee on increasing the 
functionality of the Post-9/11 GI Bill claims processing to 
reduce delays.
    I served in the United States Marine Corps from 2004 to 
2008. In 2005, I was in Iraq. In 2007, I was in Afghanistan. I 
transitioned out. I used the Montgomery GI Bill.
    During this time, the movement for the new Post-9/11 GI 
Bill was taking place in the halls of Congress, so I 
experienced firsthand that transition from Montgomery GI Bill 
to this new Post-9/11 GI Bill and the delays that come with it. 
These delays still persist to this day.
    Student Veterans of America is the largest and only 
national association of military veterans in higher education. 
We currently have over 750 chapters or student veteran 
organizations at colleges and universities in all 50 states and 
in your districts that assist veterans in their transition to 
and through higher education.
    SVA chapters were organized at four-year and two-year 
public, private, nonprofit, and for-profit institutions of 
higher learning.
    This on-the-ground perspective which comes from every 
corner of this Nation and our experience in supporting 
thousands of GI Bill beneficiaries provides the framework for 
our testimony regarding the long-term solution and other 
recommendations regarding improvements for the processing of 
the Post-9/11 GI Bill.
    Long-term solution or LTS, a proposed fully-automated, end-
to-end processing system for the Post-9/11 GI Bill, has been a 
topic of discussion since 2010. And you mentioned the multiple 
hearings, Mr. Chairman.
    While the LTS is a behind-the-scenes IT system being rolled 
in phases, SVA has concerns with the lack of realtime 
information currently being provided to student veterans.
    We have routinely called for a secure Web-based single 
portal system that allows for student veterans to see the 
status of their GI Bill claim in realtime.
    Currently, student veterans are only able to track the 
status of their claims by calling the GI Bill hotline or 
interfacing with our colleagues here, school certifying 
officials.
    The GI Bill hotline has elongated wait times and during 
periods of heavy call traffic, the automated system instructs 
the student veterans to call back at a later time. This process 
is highly inefficient and extremely frustrating to veterans.
    The other option is for gaining information on the status 
of a veteran's GI Bill claim and often the most consistent is 
for a student veteran to connect with the school certifying 
official on campus.
    The school certifying officials have a private and, by most 
accounts, reliable hotline that they can call on the status of 
a veteran's GI Bill claim. However, this is not a long-term 
solution for the timely processing of the GI Bill.
    School certifying officials should have access to a system 
that allows them to submit certifications of enrollment in a 
streamlined manner and, most importantly, follow the status of 
a veteran's GI Bill claim in realtime.
    Since school certifying officials interact with the student 
veterans on a regular basis, they are often inundated with 
questions about the status of a veteran's GI Bill claim. They 
must be provided with the adequate systems to process and view 
the status of a student veteran's claim in realtime.
    We recommend that school certifying officials and student 
veterans be provided appropriate realtime access to the status 
of GI Bill claims utilizing 21st century Web-based technology.
    Both the student veteran and school certifying official 
portal we propose is not a concept unknown to the public or 
private sectors. You see it with the United States Postal 
Service, FedEx, UPS, your bank, insurance claims.
    These can all be tracked or using the Web, you can log in 
and find out the status of your claim. But currently student 
veterans are unable to really figure out what the status of 
their GI Bill claim is.
    Not only are customers notified of estimated time and 
delivery with shipping services like the United States Postal 
Service or FedEx, but when a hiccup occurs in the delivery of a 
package, the receiving customer is notified in a timely manner 
and given a new delivery time.
    This does not work every time. The system is not perfect. 
But it works the majority of the time.
    It is difficult to grasp in a technology-rich society why 
the time in processing of the Post-9/11 GI Bill is still a 
subject of concern. Equally disturbing is the inability of 
student veterans to access the status of their claim in 
realtime or near realtime.
    We are grateful for the opportunity to testify here today. 
I want to thank you, Mr. Chairman and Ranking Member Takano, 
and I welcome any of your questions.

    [The prepared statement of Michael Dakduk appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Dakduk.
    Ms. Hall.

                     STATEMENT OF KIM HALL

    Ms. Hall. Chairman Flores, Ranking Member Takano, Members 
of the Subcommittee on Economic Opportunity, the National 
Association of Veterans Program Administrators is pleased to be 
invited to provide comment on the topic of increasing the 
functionality of the Post-9/11 GI Bill claims processing.
    NAVPA's membership is comprised of educational institutions 
from all sectors with an organizational commitment to 
advocating for what is in the best interest of student veterans 
at our institution.
    Our expertise lies in the administration of veterans' 
education programs at colleges, universities, and other 
education providers, and most of our members also serve as 
school certifying officials for VA education benefits.
    Our organization represents close to 400 educational 
institutions nationwide and our leadership is comprised of non-
paid staff members.
    The Post-9/11 GI Bill is an incredibly generous and 
complicated benefit program. The level of detailed, often 
manual work required of school certifying officials is 
frequently overwhelming.
    There are a number of things we believe could be done to 
ease the burden on SCOs and on VA processors to make this a 
more streamlined and manageable process.
    We must have regulations for the GI Bill law passed over 
two years ago, Public Law 111-377. Schools are being held 
liable for overpayments by policies that are not in alignment 
with existing regulations and schools are expected to comply 
with legislation that has been regulated.
    The VA certification data entry system still requires 
schools to upload data multiple times for the same student one 
student at a time. There are no batch uploads.
    Certifying officials are advised to input only one change 
per day for each student to ensure they are received correctly 
at the regional processing office and the ability to modify, 
update, or correct some inputs is severely limited if not 
impossible to do electronically.
    Chapter 33 claims processed by the LTS automated 
functionality are now paid very quickly, as soon as five 
workdays from submission from our observation, but this is 
still a minority of supplemental claims and includes no 
original claims. LTS must continue to evolve so it is able to 
process more complex claims and changes.
    Certificates of eligibility are not the same as 
authorizations for payment as used under Chapter 31, military 
tuition assistance. COEs do not represent a guarantee of 
payment of the said amount, but rather a statement of general 
eligibility for a program.
    The VA still can pay all or a portion of reported charges 
based on a number of possible criteria and situations.
    As long as VA requires schools to report every change in 
enrollment or charge, waiting until the end of term to submit 
tuition and fees will not help reduce the number of adjustments 
or amendments required, but will rather compress them into a 
very limited time period.
    Every one of these changes has to be reported individually 
and, as mentioned previously, on separate days to make sure 
that the data arrives at VA intact.
    The RPO should communicate with schools prior to sending 
school debts to the VA's debt management center for collection. 
There should be agreement on both the rationale and the amount 
of the overpayment before the DMC starts collection processes.
    The VA's review in 2011 of outstanding 2009, 2010 
overpayments was obviously flawed as the DMC suspended 
collection on over 800 of these debts and many schools reported 
offsets taken for debts that were already paid or previously 
reassigned to the student by the RPO.
    The U.S. Treasury offset program procedures must be changed 
to prevent multiple agencies from offsetting the same debts 
simultaneously.
    A system that only allows a weekly update of offset-
eligible VA debts is irresponsible. This has caused enormous 
confusion, frustration, effort on the part of institutions to 
track and reconcile inbound payments and offsets from multiple 
non-VA related Federal sources including the refunds of 
erroneous or duplicate offsets taken.
    It seems unreasonable in this IT driven age that the four 
regional processing offices cannot see electronic files in each 
other's jurisdiction. This lack of visibility requires 
additional form submission by veterans if their initial 
application was processed and their certificate of eligibility 
issued by one RPO but the veteran decides to enroll in a school 
in a different region.
    The educational call center staff in Muskogee has 
visibility on veteran files from all four regions. Why not all 
four RPOs so that this additional paperwork and delay on claims 
processing can be avoided?
    There is still no school access to real-time eligibility 
and payment data for students using the Post-9/11 GI Bill, our 
most long-standing request. This significantly impacts schools' 
ability and willingness to extend financial protection or 
courtesy for student veterans.
    Schools' initial experiences with the Post-9/11 GI Bill 
including the recent debt collection efforts have not served to 
build confidence in the program or its accurate implementation. 
Only direct access to data will change this.
    Mr. Chairman, Members of the Subcommittee, thank you again 
for this opportunity to contribute these statements on behalf 
of NAVPA. I will be happy to respond to any questions you may 
have.

    [The prepared statement of Kim Hall appears in the 
Appendix]

    Mr. Flores. Thank you, Ms. Hall.
    Ms. Perez.

                  STATEMENT OF HAYLEIGH PEREZ

    Ms. Perez. Chairman Flores and Representative Committee 
Members, thank you for this opportunity to testify before your 
Subcommittee today.
    I would also like to thank Jason Thigpen, founder and 
president of Student Veterans Advocacy Group, for his 
leadership and this opportunity, as well as the other panel 
members.
    My name is Hayleigh Perez. As a female veteran who served 
on active duty in the U.S. Army, a wife, mother, student 
veteran, and currently vice president of the Student Veterans 
Advocacy Group, I feel very proud speaking at such a relevant 
topic.
    The words freedom isn't free are so very true, yet our 
veterans today seem to be demonized as though we are asking for 
something that is not already ours.
    Our veterans should never have to ask for something or 
often beg for things that were promised to us for the 
sacrifices made to protect our great Nation.
    Theodore Roosevelt once said a man who is good enough to 
shed blood for his country is good enough to be given a square 
deal afterwards.
    Many veterans are finding it extremely difficult to adjust 
back to civilian life for a multitude of reasons. Let's keep in 
mind a big difference with the ten-year war in Iraq and 
Afghanistan, contrary to past wars, is that our servicemembers 
have survived at a higher rate than prior wars. Of course that 
is a blessing, but it also precipitates a much greater need for 
preparation and care at home that our Nation was not prepared 
for.
    As a result of the unanticipated transitional difficulties 
from backlog of delayed processing of VA claims, many 
servicemembers, veterans, and families thereof are suffering 
from unforeseen hardships that could otherwise have been 
avoided.
    So what is the issue? The processing delays. Student 
veterans are often faced with extreme financial hardships when 
transitioning to school for the first time, starting in 
programs, changing schools or programs.
    And when following up with their paperwork, student 
veterans often realize that they themselves and the university 
have done everything on their end to ensure a timely claim, 
though months often pass with no payment, no answers from VA as 
for the reasoning for such delays.
    The way which current VA GI Bill claims are being processed 
needs significant improvement. Many of our Nation's student 
veterans are relying on their earned GI Bill benefits for 
groceries, child care bills, and housing. The delinquency by 
which these funds are being disbursed or not disbursed at all 
are oftentimes life altering, causing some consequences as 
extreme as veteran homelessness.
    A fellow student veteran wrote to our organization stating 
there is a little known book called When War Comes Home by 
Aaron Glantz. On page 212, Glantz states Members of Congress 
and bureaucrats at the Pentagon and the Department of Veterans 
Affairs may not be attacking our veterans with mortars and 
IEDs, but they are literally killing them with indifference.
    This past semester beginning graduate school, I experienced 
these delays firsthand. When I first contacted VA in January, I 
was told there was not even a record of my attending graduate 
school which I had begun attending a week prior.
    After resubmitting the same documentation that I had sent 
in November of the previous year, I was told to follow-up a 
week later.
    After calling the VA every week for five weeks, I finally 
got through the never-ending hold times and I got to speak to a 
woman by the name of Yvonne. Yvonne could see all of the 
documents that I had submitted both times and within a few 
minutes was able to issue payment for my book stipend and my 
housing allowance as well as my VA certificate. Within a few 
days, I received these funds and was able to continue with 
school.
    Through research, our organization has discovered that VA 
is using the two different systems that were referred to 
earlier. I propose and our organization proposes to consolidate 
these two software programs currently being used by VA to one 
standard program and retrain all of the VA representatives.
    By consolidating the software programs to one standard 
program, the representatives will have equal access to 
addressing any GI Bill beneficiary claim. This would assist in 
maximizing productivity for VA and its representatives and 
reduce the considerable cost savings measure for both GI Bill 
beneficiaries and the Department of Veterans Affairs.
    Each student veteran should also have a representative 
assigned to them at a local, State, or regional level. By 
assigning GI Bill beneficiaries an individual representative, 
they can additionally ensure more compliance, accountability, 
and continuity being met by VA.
    Our society today is covered with blank checks it offers to 
one group or another. The difference between student veterans 
and other groups is that they are not asking for anything more 
than they have earned.
    Have we really fallen so far in America that we resolve 
ourselves to believe if we are not personally affected, then it 
does not matter? Well, in many ways, having become 
disenfranchised with some of the questionable actions by our 
government, I can still honestly say that I would sacrifice my 
life to secure the liberties and freedoms we have in America.
    So is it really too much to ask for our government to 
fulfill its obligation as intended to our servicemembers and 
our veterans?

    [The prepared statement of Hayleigh Perez appears in the 
Appendix]

    Mr. Flores. Thank you, Ms. Perez.
    Mr. Dakduk and Ms. Perez, I do want to thank you on behalf 
of the entire Committee for your service to our country in 
these challenging times of war.
    I thank all of you for your testimony, and I have a couple 
of questions that I would like to get through. I am going to 
recognize myself for five minutes.
    Question number one is how does the inability of a school 
certifying official being able to access and view a veteran's 
remaining entitlements make it difficult for school certifying 
officials to counsel a student as required by the principles of 
excellence required by the President's Executive Order?
    Ms. Hall, this is probably for you, but I will take answers 
from any of you.
    Ms. Hall. You know, to begin with, when you are working 
with a student, especially with the principles of excellence, 
it is in the best interest of both parties to be able to sit 
down and look at the big picture, look at their long-term 
objective beginning from when they start school all the way to 
their career. And while you are doing that, there is a lot of 
financial planning involved.
    The only way to be able to look at the budget that the 
student has versus the money that they have coming in is based 
on their entitlement, the GI Bill. So the calculation from the 
monthly amount all the way down to the day that they are going 
to get that last payment is reflected in that entitlement 
figure.
    And so it is very important at the beginning that not just 
remaining entitlement, but all of the eligibility for that 
student, the amount of money that they may be getting in a 
stipend or versus their status of enrollment at the university 
becomes all important data in calculating those budgets, those 
finances, and ultimately, you know, the time they start to the 
end of their degree.
    Mr. Flores. Okay. Thank you.
    Since I have time, I am going to ask another question, and 
this can be for any of you or all three of you if you would 
like.
    What has been your experience in terms of the complaints 
you are receiving from your members and constituents, by 
student veterans about the GI Bill processing? What sort of 
change have you seen over the last semester or prior semesters 
compared to this semester now that this system has been rolled 
out?
    Mr. Dakduk. Well, Mr. Chairman, I want to acknowledge that 
since the system has been rolled out, there has been an 
increase in the processing of GI Bill claims, so that should be 
acknowledged.
    But I would also say that at the beginning of the 
semesters, that is when we see an influx of delays and that is 
when we receive most of our complaints at Student Veterans of 
America.
    So we have a concern when we talk about troops returning 
home from Afghanistan. And the Department of Defense estimate 
over the next five years that one million troops will remove 
the uniform and make the transition into civilian society, many 
of them are going to use this new Post-9/11 GI Bill.
    So we want to make sure that the Department of Veterans 
Affairs is prepared to handle that influx of military veterans 
on college campuses. But at the beginning of semesters is when 
we see a high number of delays.
    Mr. Flores. To kind of go back to the original question, if 
you look at where we are now versus prior semesters, have you 
seen a change? It sounds like you have got this cycle where at 
the beginning of each semester, your complaints are higher. Is 
the trend downward or is it the same or what? What do your 
constituents tell you?
    Mr. Dakduk. I would definitely say since the implementation 
of the Post-9/11 GI Bill the trend is downward. I will 
acknowledge that.
    Mr. Flores. Okay.
    Mr. Dakduk. But it still is an issue and it is a real issue 
at the beginning of terms.
    Mr. Flores. Okay.
    Mr. Dakduk. And I would just like to acknowledge this one 
thing, Mr. Chairman. The issue is, is because we cannot see the 
status of our GI Bill claims and our housing allowance comes on 
the tail end of each month.
    Mr. Flores. Yes.
    Mr. Dakduk. We do not know if you are waiting six weeks or 
eight weeks to pay your bills. Institutions of higher learning 
have been pretty supportive when it comes to supporting student 
veterans with their tuition and fees, but landlords are not as 
supportive when it comes to paying your rent.
    Mr. Flores. Ms. Hall, any comments?
    Ms. Hall. Absolutely. The tuition and fee processes, as I 
stated earlier with the overpayment situation, is in a crises 
mode is what I would say at this point. Institutions have 
extended a courtesy out to allow veterans to continue attending 
school as we wait for the VA payments to arrive for tuition and 
fees.
    We have no way of knowing at the beginning of the term or 
even until we actually receive a payment of how much we are 
going to get for that student's tuition and fees. And 
oftentimes it results in underpayments and overpayments. And by 
that time, the student is most definitely involved.
    And if there is not a complaint, there should be at that 
point because the schools are trying to accommodate the VA's 
payments as they are coming in and----
    Mr. Flores. Okay.
    Ms. Hall. --were ending up with all kind of overpayments.
    Mr. Flores. Just kind of a one-word answer. Better, worse, 
or the same or----
    Ms. Hall. You know, in terms of the tuition and fees, it is 
definitely worse. You know, the students do not see it at the 
very beginning because we are deferring out the tuition and 
fees.
    Mr. Flores. Okay. Ms. Perez, better, worse, the same?
    Ms. Perez. Mr. Chairman, I would say it is the same.
    Mr. Flores. Okay.
    Ms. Perez. The student veterans that are reaching out to 
our organization are the ones who are suffering extreme delays, 
that are being forced out of their homes. They cannot pay for 
child care. It is having huge detrimental effects on their 
personal lives. And they are not able to be successful in their 
studies.
    Mr. Flores. Thank you.
    Unfortunately my time has expired, so I am going to now 
recognize the Ranking Member for any questions he may have.
    Mr. Takano. I am a new Member of Congress. I am having to 
get my arms around this issue.
    Ms. Perez, can you tell me more about the students who have 
experienced homelessness and just how--I mean, related to the 
late payments or there are problems with the claims? I want to 
be able to get a firm picture of that myself.
    Ms. Perez. As was stated by the SVA, some of these claims 
are backlogged so far that these students are not getting their 
payment on time. They are not able to pay their rent or their 
child care. And some students have had to withdraw from school 
because of not having this housing allowance or this book 
stipend.
    And in my case, my payment was delayed eight weeks. And I 
know there are several student veterans out there that are 
experiencing much further backlogs. And if they are not being 
as proactive, they are not able to even find out the status 
because there is nowhere to verify the status of your claim.
    My claim was lost in, I guess, the old system and it was 
not until I finally reached a certain person on the phone that 
she was able to see that I had even turned in the paperwork. So 
it was almost like my claim was in limbo. Had I not reached her 
and somehow she had the ability to access my file in another 
system, my claim would still be sitting stagnant as others' 
claims are.
    Mr. Takano. Is there any organization that has quantified 
people who have had to withdraw or have been homeless because 
of the way we process claims?
    Ms. Perez. Oh, I think one is too many, sir.
    Mr. Takano. I understand. Thank you. I agree.
    Mr. Dakduk. Ranking Member Takano, there is a major issue 
that Student Veterans of America is working on as we move 
forward and that is data collection and the lack of data on 
military veterans and family members in higher education.
    We are actually working with the Department of Veterans 
Affairs on tracking student veteran outcomes. But to your 
specific question, no, we do not have that kind of data. But 
that has become a major priority for us moving forward.
    Mr. Takano. Great. Ms. Hall, have you had to resort to 
going back to paper forms at all or has it pretty much gone to 
all automation?
    Ms. Hall. What the VA wants, we are fairly automated. But, 
again, it is a very simple piece of software that does not 
allow for much in terms of changes. Once you report one record, 
it is often gone.
    You have a period of time that you have to wait before you 
can make changes to that one record. And even then, some of 
those records you are not able to change. You have to create a 
whole other record in order to make a change in certain 
instances.
    So the automation is simple. It works. I do not believe 
that there is many universities or colleges that are back to 
using old enrollment certification papers.
    Mr. Takano. You mentioned this issue of only being able to 
make one change a day.
    Ms. Hall. Yes.
    Mr. Takano. What is that about?
    Ms. Hall. What that is, is when you are submitting a 
certification or an adjustment, a change in the units or any 
type of a change to a record, if you do multiple submissions, 
it gets lost in that queue. It does not get to the VA in the 
order that it needs to get in to show how that student has 
reduced units or even if you are talking about money, we report 
full amounts of tuition and fees to the VA.
    And then if there is changes, multiple changes due to add, 
drops in the student's schedule, you have to do those one day 
at a time. Otherwise, they----
    Mr. Takano. This obviously takes up time and staffing from 
the institution.
    Ms. Hall. Absolutely. To be quite honest, the tax offsets 
with the overpayments are taking up the majority of our time at 
this point.
    I believe that most of our board members in our 
organization have been focused more on trying to figure out how 
to relieve some of the pressure from the tax offset programs 
and not being able to use as much of our labor and our time 
doing the school certifications.
    Mr. Takano. And have schools resorted to having to ask 
students to pay up front because of the delays in processing?
    Ms. Hall. Well, I do not know if you saw the Florida 
schools, but what is happening is, yes, the debt that the 
school has incurred has been moved down to the student veterans 
to pay back so the school can make their payments back to the 
tax offset program.
    I am sorry. Your question again?
    Mr. Takano. Well, have institutions begun to ask veterans 
to pay up front because they are experiencing these delays in 
processing?
    Ms. Hall. Yeah, no. It is probably where we are going. I do 
not believe at this point and time right now that the majority 
or even the minority of schools are asking for students to pay 
up front. We are doing our best to float the students until the 
VA pays.
    But if the overpayments and tax offsets are not taken care 
of--we are in the hundreds of thousands of dollars that the 
schools are in debt with the tax offset. So if it continues, 
then we may have no choice but to begin that process of asking 
the students to pay up front.
    Mr. Takano. Thank you, Mr. Chairman. My time has expired.
    Mr. Flores. Thank you, Mr. Takano.
    I would like to recognize any other panel Members that may 
have questions. Let's start with Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    You know, one thing, and let me throw this out to all the 
Members, I am old school. I was a Vietnam era veteran. Came out 
of the Army. Transferred to the Marine Corps later on.
    And so I was under that old GI Bill where it was just one 
check that you got and you decided, you know, where it was 
going to. And it was always on time. We never seemed to have 
the problems that the younger veterans have today.
    And so it was enough money to attend a public university 
and to pay for tuition, room and board. I think it fell short 
on fees or something like that. So I was in the reserves and 
made up the difference there.
    But I am wondering if part of this problem is the 
complexity of this program that we have a stipend for this and 
then we have a check for that.
    And wouldn't it be better just to give the veterans, Ms. 
Hall, one check and allow them to make the decisions about how 
to allocate it?
    Ms. Hall. That was a great time, wasn't it? The problem 
with that is that there--you know, right now we are extending, 
just based on that certificate of eligibility, we are extending 
that courtesy to move out those fees. I do not know that the 
schools would be so generous if the money went to the student. 
There is no guarantee that the student would bring that money 
to the university.
    And, quite honestly, I do not know that--I mean, I know the 
students also have overpayments that they are dealing with, so 
they have the same problems that we are having with the tuition 
and fee check.
    But I believe that it would probably more than likely 
resort back to the way it was in which the students would be 
held just like a traditional student to pay their tuition and 
fees on time.
    Mr. Coffman. I just do not remember a problem. You know, my 
fellow veterans, you know, this is back in the 1970s, I just do 
not remember that anybody had problems in terms of delayed 
payments.
    And, you know, people that, you know, serve this country in 
defense of our freedom make extraordinary sacrifices. I 
certainly understand individual responsibility and, you know, I 
just do not remember that there were problems in the old 
program that I am hearing now with this new program.
    And let me defer to the veterans that are here today.
    Mr. Dakduk. Well, thank you, Mr. Coffman, for that 
question.
    That is actually something that has been debated for quite 
some time since the inception of the Post-9/11 GI Bill. Do we 
remove the institutions from the equation? Do we pay the 
veterans directly like the old program?
    It is something that me and my colleagues at the Veterans 
of Foreign Wars and The American Legion are trying to work on 
as well. And we are thinking about whether that will be the 
best bet moving forward.
    The problem is, is we are trying to figure out if we have 
made these investments in solutions, what is known as the LTS 
and other IT systems, how can we not get this right in the 21st 
century technologically-advanced world we live in? There is no 
way to create some sort of algorithm or system that can process 
these claims in the adequate manner?
    So it is kind of difficult for us to understand that, but 
then we also realize we are working with the Federal 
Government. So we have talked about and we are trying to figure 
out whether paying the veteran directly will potentially be the 
best way of solving this problem.
    So I want to let you know that streamlining the process of 
the Post-9/11 GI Bill is a priority for Student Veterans of 
America.
    Mr. Coffman. Thank you for your service.
    And I think our time overlapped with the United States 
Marine Corps in Iraq. I was there 2005, 2006.
    Ms. Perez.
    Ms. Perez. I am not all that familiar with the old GI Bill, 
but I know, too, Mr. Coffman, there was not the hiccups that we 
are experiencing now. And I have to agree that streamlining the 
process would definitely propose a solution.
    My husband receives his paycheck on time every month and I 
feel as though we should be able to get this right with the 
technology that we have before us today, sir.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Flores. Thank you, Mr. Coffman.
    Ms. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Chairman Flores and Ranking 
Member Takano.
    And thank you to our veterans.
    I want to tell you that when I first came to Congress four 
years ago, a veteran approached me and he said, Ms. 
Kirkpatrick, remember this because our veterans have already 
paid the price, you have to fight for them with all your might. 
And I have never forgotten that and your point is well made 
that we should be taking care of our veterans.
    And I want to ask the two of you what your experience has 
been in the average delay in processing for these claims. Just 
sort of ballpark, what is the average time we are looking at?
    Ms. Perez. Ma'am, I have seen anywhere from two months to 
five months where the semester is almost ending and the student 
is just receiving the first payment. And it is a substantial 
payment, but that did not help them to sustain life through the 
semester to take care of their family.
    It can cause the veteran's studies to suffer. So to ensure 
that we are successful in the classroom, we need these tools so 
that we can utilize them and put our energy towards becoming 
productive citizens of society.
    Mr. Dakduk. Thank you, Ms. Kirkpatrick.
    Six to eight weeks from the beginning of a semester or 
term, that is kind of the average timeframe we have seen, 
especially this last term, and the complaints we have received 
from student veterans.
    As you get through the semester or the term, the VA tends 
to get on it or figure it out at that point or the school 
certifying officials in the institutions of higher learning are 
able to work with the veterans to come up with some sort of a 
fix to the issue.
    But I also want to acknowledge Kim and NAVPA and what they 
have been saying around the debt collection issue, the tax 
offsets. That is a real issue. And if we do not get that right 
with the institutions of higher learning, then it is going to 
affect student veterans and then institutions are going to have 
to resort to some things that might hurt the student veteran in 
the long run.
    Mrs. Kirkpatrick. What do we need to do legislatively to 
address that in your opinion?
    I will throw that out to the entire panel. Any one of you 
could address that.
    Mr. Dakduk. Well, I would say that what we are doing right 
now, we have made it a priority to really discuss this issue, 
potentially hold a hearing on the tax offsets and the debt 
collection and the process that occurs. I think that would be 
an important next step. But we are working with our colleagues 
at NAVPA and Student Veterans of America has made that a 
priority to look into this issue.
    Ms. Hall. What we are asking right now is a lot of the 
overpayments have stemmed from the 2009, 2010 year when 9/11 
first started and we are asking that the collection process be 
stopped at this point so that we can re-look at some of these 
tax offsets that are happening currently.
    There are so many errors in the processing, duplicate 
payments, offsets for students that never attended an 
institution, and then the payments coming back from the 
Treasury Department are virtually unidentifiable by the 
schools.
    They are sent back under a Federal tax ID number whereas we 
use facility codes. And so it comes back to the tax ID number. 
There could be multiple institutions within that tax ID number 
or one tax ID number for an entire state with the overpayments.
    So the process right now really needs to come to halt until 
we can go back and re-review some of these offsets to see if 
there is--to find the legitimacy in them and make sure they are 
accurate.
    Mrs. Kirkpatrick. And if the process does come to a halt, 
what is your estimate of the timeframe it is going to take to 
correct these measures?
    Ms. Hall. You know, if we could put and VA could put 
together a solid group that was familiar with the processing of 
the tuition and fees and how the debts were originated, you 
could go through those files fairly quickly, I believe, a 
month, maybe even weeks to get that through that process.
    Mrs. Kirkpatrick. And in your experience, is the processing 
problem a state-by-state problem or is it a Federal 
department's problem?
    Ms. Hall. Absolutely Federal. Absolutely, yeah.
    Mrs. Kirkpatrick. Thank you very much. I yield back the 
balance of my time.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    Mr. Runyan.
    Mr. Runyan. Thank you, Chairman.
    A few things. I think we got it. And I happen to chair the 
Subcommittee on Disability Assistance and Memorial Affairs with 
Ms. Titus as the Ranking Member. And I think we get these 
processes, same thing with VBMS, on how we are going to figure 
that out. It is a challenge.
    But I think, Mr. Dakduk and Ms. Perez, I think you both 
kind of--Ms. Perez, when you brought up the fact that the 
hotline actually solved your problem, you know, I am talking 
about short-term solution, and actually person-to-person 
contact and getting it done.
    In my experience, and I think you will probably be 
refreshed to hear this, my own brother went through this 
process and it got to the point in his academic career that he 
would call and say I need money for food, I need money to pay 
my rent, can you help me. The VA check is coming, but I do not 
know when.
    So my question goes right now, I know we have a big 
systemic problem to short-term phase, what can the VA do, Mr. 
Dakduk, to make the hotline work?
    I know you said about call volume kind of thing also. And 
when you answer this question, too, I want you to add in, is 
there a difference between the fall term and the spring term or 
the winter term because of people entering college 
traditionally September? You know what I am saying?
    So there is going to be peaks and valleys in calls. And you 
obviously already said there is a beginning the semester 
problem, but is there, you know, an enrollment issue at the 
beginning of the traditional school year versus the rest of the 
year and what can the VA do to make the process work because 
obviously Ms. Perez says when she actually got through to 
somebody, it was soft?
    Mr. Dakduk. Thank you, Mr. Runyan.
    You see issues at the beginning of a term. Usually it is a 
semester because that is how most traditional institutions of 
higher learning are set up. But it fluctuates depending on the 
type of institution.
    And it is very important not to lump student veterans into 
traditional students because they are nontraditional students 
and they enroll at multiple times during the year.
    But usually the influx that we have seen in working with 
the VA is during the beginning of a semester. There are some 
delays that may occur throughout a term, but that is the most.
    Now, the GI Bill hotline, once you get through, you might 
have some success, but that is the key, getting through on the 
hotline. I made two calls before coming to this hearing to the 
GI Bill hotline over the past three days. I did one on Monday, 
and I did one on Wednesday or Tuesday and Wednesday.
    And on Tuesday, I called around two p.m. eastern. I did not 
get through. It told me to call back and leave a message and to 
receive a call back from the VA. I hung up. I called back the 
next day, Wednesday at three p.m. It said to call back after 
hours, leave a message, and somebody will call back.
    I did not call back after hours because at five-thirty, six 
o'clock I was on the Metro train on the way home. Seven o'clock 
I answered some e-mails to catch up on some work. Around eight 
I ate dinner and then I went to bed.
    We do not operate on that same timeline of call back and we 
will respond to you at a certain time. There is no system that 
we can access that you can just find out status of the claim.
    Now, I should take that back and say that there is a 
frequently asked question system that exists on the GI Bill Web 
site. I simply asked one question at the beginning of last year 
on how many months of my Post-9/11 GI Bill I had left because I 
saved some, and I wanted to use it for graduate school after I 
graduated with my undergraduate degree.
    It took 30 days for a response just to say how much time I 
had left on my GI Bill which was roughly eight months. And it 
was wrong. It said I had eleven months. And I found out later 
that I only had eight. So even the response I got 30 days later 
was wrong.
    So staffing the GI Bill hotline, these are all just short-
term solutions. In the long run, we need some Web-based 
technology that allows the student to see this in realtime.
    Thank you, Mr. Runyan.
    Mr. Runyan. Thank you for that response.
    With that, I yield back.
    Mr. Flores. Thank you, Mr. Runyan.
    Ms. Brownley.
    Ms. Brownley. Thank you very much, Mr. Chair.
    And I apologize for missing some of the original testimony, 
but it certainly seems to me that all of you have really laid 
out what the problems are. So we are very clear on what the 
problems are. But the fixes for it, both short-term and long-
term, do not seem to be quantified or there is not a direction.
    I was in a Committee hearing yesterday on mental health and 
talking about the response time from the time that a veteran 
would call and be attended to and how we have prioritized and 
made sure or making sure working towards the goal of a 
particular response time.
    And I am just wondering, and I know the VA is going to come 
up and testify in the second panel, but from your perspective, 
what has the VA laid out in terms of shorter-term resolutions 
and longer-term resolutions?
    I agree. It seems as though with technology that there 
should be a way in which technology should be able to really 
assist in this. It seems like better partnerships with higher 
education institutions and communications and not working in 
silos should be part of the solution.
    But I am just wondering are there any specific goals and 
specific plans for short and long-term solutions?
    Ms. Hall. I just want to reiterate I think what Mike has 
been trying to say to you is that really the data portal, the 
ability for the school certifying officials to see the process 
as it happens in realtime is very important.
    I mean, if the technology cannot get the process moving 
quicker and more accurately, then at least we need to be able 
to see what happens so that we can help the students continue 
to stay enrolled in school.
    Ms. Perez. Can I add to what Ms. Hall said? With my 
personal experience when I called in, I spoke to four different 
people prior to talking to the woman that was able to fix it 
for me. So I think continuity of training is nonexistent with 
the people that you reach when you finally do get through the 
hotline.
    And I do have to add that I think the call-back system is 
beneficial from where we were, where we were sitting on hold 
for an hour. An hour is a long time. I can do a lot of 
productive things in an hour.
    But just continuity of training with the people that you 
get when you do finally get through that hotline, I think, is 
very, very important.
    Mr. Dakduk. I think, Ms. Brownley, what we need to do is 
really focus in on this portal. We need to focus in on some 
sort of Web-based interface where a student veteran can go on 
and school certifying official and see as well what the status 
of a claim is. It is just remarkable that we cannot do that 
now.
    I believe the Department of Veterans Affairs when they 
testify will talk about the fourth release and the long-term 
solution which will provide some sort of concept around that. I 
do not know what that is. I do not know what it is going to 
look like. But if that is the last rollout in their phased 
approach on this long-term solution, we have got to make sure 
we get that part right for the long-term.
    Ms. Brownley. Thank you.
    Mr. Flores. Thank you, Ms. Brownley.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    As a university professor, I have worked with a number of 
students who are on the GI Bill at UNLV, so I want it to work 
right. And I have heard a lot of their complaints.
    I do think that the VA has a responsibility to do a better 
job, but I can tell you sometimes university bureaucracy is to 
blame for part of the problem.
    So I agree with Ms. Brownley. We need maybe to set some 
standards that universities have to meet as well at their end 
to help this process work better.
    Also, several of you mentioned, or in your testimony, and 
in your answers, that you are nontraditional students. So a lot 
of veterans going back to school do not go to brick and mortar 
four-year liberal arts colleges. There are lots of other ways 
to get a college degree now, whether it is online or short-term 
in the summer, you know, just different kinds of seminars that 
you can take.
    And I wonder, is the experience any different with the 
different kinds of approaches that you can take to a degree? Is 
it better in online programs? Is it better on University of 
Phoenix? Is it better at William and Mary or does it make any 
difference?
    Mr. Dakduk. Well, thank you, Ms. Titus.
    First, I want to tell you I graduated from UNLV. I recall 
seeing you several years back when you came with Ms. Berkley--
--
    Ms. Titus. Nice to have you here.
    Mr. Dakduk. --and Secretary Shinseki at a round table and 
it is great to see you again.
    I will say that there has been a lot of speculation right 
now in not only the halls of Congress, but in the media around 
the value of for-profit institutions of higher learning.
    We have student veterans that attend colleges and 
universities at brick and mortar institutions and online. And 
what we are working on right now is tracking student veteran 
outcomes, getting the data on graduation rates, persistence, 
finding out what this data actually is.
    There is a gentleman from the University of Phoenix in 
attendance here today. I met with his CEO. I met with the 
leadership of for-profit institutions, nonprofit institutions, 
private, public institutions of higher learning. I see student 
veterans succeeding all across the country. That is what I see 
anecdotally.
    Although there have been reports in the media that student 
veterans are dropping out at high rates, these reports are 
unfounded. There are no facts to them.
    That is why it is a major priority of Student Veterans of 
America working with The American Legion and VFW and the 
Department of Veterans Affairs, I want to acknowledge that, to 
track student veteran outcomes and get this data to find out 
how successful student veterans are at different institutions 
of higher learning.
    I just met with President Barron, the Florida State 
University president. His graduation rate is 87 and a half 
percent for military veterans. But there are very few 
institutions of higher learning in our country that are 
actually tracking student veteran outcomes.
    That needs to be done so we can find out how successful 
they are and what are the programs and initiatives that are 
leading to success. That is a major priority for us moving 
forward.
    Thank you, Ms. Titus.
    Ms. Titus. Thank you.
    And if you are one of our graduates, you make us very 
proud. You have obviously done very well.
    Other comments about the process or the results depending 
on the approach?
    Ms. Hall. Our membership is made up of a consortium of 
colleges and universities. And I would say that the claims 
processing is the same across the board with all of them. We 
all experience the same problems, the same delays, the same 
communication issues. I would say there is not a wide 
difference in the processing.
    Ms. Perez. Thank you, Ms. Titus.
    I would have to agree with Ms. Hall. Having attended a 
brick and mortar institution as well as an online school, I did 
not notice a difference as far as any of the processing. So I 
do not think there is data that supports whether one is more 
easily available versus the other.
    Thank you, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Flores. Thank you, Ms. Titus.
    I appreciate the feedback we have received from the panel. 
We received several noteworthy pieces of information that will 
be helpful to us as we continue this process.
    I do have one sort of a closing question for Ms. Hall. And 
that is, it seems to me like one of the things we heard is that 
this process might work better if we went back to the 
Montgomery GI Bill payment processing system which is 
essentially monthly payments.
    If we were to do that, what is your feeling as far as the 
schools finding that to be an acceptable solution? You would 
have to take your payments on a monthly basis. Is that 
something you think schools would be willing to do?
    Ms. Hall. Are you inquiring about the tuition and fee 
payment being paid on a monthly basis?
    Mr. Flores. That is correct. That is essentially correct.
    Ms. Hall. You know, I do not think that the amount, the 
amount of the money is--I guess it is the issue. The issue 
really is that we do not know what we are getting from the VA.
    When we certify the tuition and fees, we give them an 
amount. We are not billing the VA. We just tell them this is 
what this student's tuition and fee amount is. And it is what 
we get back is what is becoming the issues. We do not know how 
much money the VA is going to pay.
    And oftentimes, we have students, I mean, again, if they 
did pay monthly and we knew they were going to pay a certain 
amount, we could bill them like an authorization, say this is 
what we have to have and we knew that is what we were going to 
get, absolutely, it would work.
    But until we are sure about the money that we are going to 
get and the ability to be able to make changes to that amount, 
right, because the students add, drop all the time, and so as 
they add, drop, the tuition and fee amounts change.
    And so the LTS, the system has to be able to process those 
changes quickly. And just off the top, I would say trying to do 
that on a monthly basis would become very labor intense.
    Mr. Flores. Thank you, Ms. Hall.
    One of the things that came out of the testimony that we 
received today is that there is one issue that seems to be, 
let's say, an important issue that might be easily resolved 
temporarily and it has to do with the concerns expressed by the 
NAVPA. And it suggests that there are significant problems with 
the debt management and collection process.
    And this comment is more for the second panel as they 
prepare to come up. It seems to me and maybe to other Members 
of the Subcommittee, it would be appropriate to temporarily 
suspend the collection of overdue payments until the VA and the 
schools can work together to develop a mutually beneficial 
solution to this particular issue.
    That way, the schools are not damaged economically or 
financially rather, and the VA comes up with a system that 
would actually enable it to do what it is trying to do in terms 
of collecting debts.
    If there are no further questions, the witnesses are 
excused, and we thank you for your service to our Nation's 
veterans and we thank the two witnesses that have also served 
our country.
    Following a short break for biological purposes, I am going 
to ask the second panel to come to the witness table.
    With us today are the Honorable Roger Baker who is 
Assistant Secretary for Information and Technology for the VA 
and Major General Rob Worley, Director of the VA's Education 
Service.
    We will resume in about two minutes.
    [Recess.]
    Mr. Flores. This hearing will resume.
    I would like to thank both of you for appearing today.
    And Mr. Baker is recognized for five minutes.

                    STATEMENT OF ROGER BAKER

    Mr. Baker. Thank you, Mr. Chairman.
    Good morning, Ranking Member Takano and Members of the 
Subcommittee.
    I appreciate the opportunity to appear before you today to 
discuss the Department of Veterans Affairs' efforts to create 
and implement the long-term solution for processing Post-9/11 
GI Bill claims.
    Accompanying me today is Mr. Robert M. Worley, II, Director 
of the Education Service.
    And as we take questions, you will see that I tend to lean 
towards the IT side of things and he will tend to lean towards 
the policy and business side of things.
    My testimony will address the current status of education 
claims processing and the status of the implementation of the 
Post-9/11 GI Bill long-term solution IT system.
    Most importantly, we can report to the Subcommittee and to 
our Nation's veterans that VA is currently processing 
supplemental claims for Post-9/11 education assistance in an 
average of seven days from their receipt, a remarkable 
achievement given that today we are still in the peak 
enrollment period for the spring term.
    For comparison purposes, on this date in 2011, that number 
was 19 days. In 2012, it was 14 days. Today we have 
approximately 80,000 claims pending which is a dramatic 
decrease from previous years at this time, about a 50 percent 
decrease.
    In January, over 149,000 claims, supplemental claims were 
processed in one day at the VA as a result of automation. That 
improvement is largely due to the automation implemented in the 
long-term solution.
    But this does not mean that we think the LTS system or the 
complex processes that it helps automate are perfect. With 
hundreds of thousands of veterans attending school each 
semester, even a small error rate, and our error rate at this 
point in time is about one percent, means unacceptable delays 
for far too many people.
    But I want to assure you, Mr. Chairman, and every Member of 
this Committee that VA employees, whether a claims processor, a 
software developer, or a manager, care deeply about doing the 
best job possible for our Nation's veterans. It is why we are 
here.
    During my confirmation in the spring of 2009, I 
consistently heard that the VA would fail in the implementation 
of the systems needed to support the Chapter 33 program. And I 
can use the word universal for that opinion.
    Under pressure to implement the new GI Bill on time, we 
also had to transform an 8,000 person IT organization so that 
it could deliver while implementing this critical new program 
which is why, frankly, I am so proud of the results.
    From a forecast of failure, the VA IT organization 
delivered the LTS system under tight deadlines and even took on 
an extra year of development when Public Law 111-377 was passed 
in January of 2011 making extensive modifications to the system 
necessary.
    The LTS delivered on time from initial capabilities in 
April of 2010 through 33 different functional releases and now 
processes over 40 percent of supplemental claims within one day 
of receipt.
    From an IT perspective, and from a VA perspective, and most 
importantly from a veteran perspective, the LTS is delivering 
value.
    As with any IT system, there are many new features and 
functionality users would like to see. This is as true for the 
LTS as it is for any of the other 1,000 plus IT systems that we 
operate inside the VA.
    Inside VA, we have a disciplined approach to prioritizing 
our IT needs and allocating funding available to those needs.
    For fiscal year 2013, we have focused our resources to 
fully support the secretary's goal of eliminating the claims 
backlog in compensation and pension by the end of 2015.
    In conclusion, our veterans' hard-earned educational 
benefits are the vehicle by which many of our Nation's heroes 
pursue their educational goals and successfully transition to 
civilian life.
    VA is dedicated to ensuring that veterans are able to make 
well-informed decisions concerning the use of their benefits 
and receive a quality education.
    We look forward to working with the Subcommittee to provide 
the best possible support to our veterans and beneficiaries as 
they pursue their educational goals.
    Mr. Chairman, this concludes my statement. Mr. Worley and I 
would be pleased to answer any questions you or the Members of 
the Subcommittee have. Thank you.

    [The prepared statement of Roger Baker appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Baker.
    And I will begin the questioning. Several times in the 
response of the VA to our pre-hearing questions, the VA stated 
that future releases and functionalities for the LTS would be 
subject to priorities and IT funding.
    Can you tell us where the LTS falls in the IT priority list 
at the VA at this time?
    Mr. Baker. Yes, I can, Chairman.
    If I can give you a little bit of a complex answer and 
maybe explain a little bit of our prioritization process.
    For 2013, as we looked at our available funding and the 
issues we had, we decided that we had a lot of automation 
coming on board with the 33 system and that actually moving to 
utilize those automations would take a lot of the fiscal year 
2013 year.
    And as you see, the automations and supplemental continue 
to increase our ability to utilize those. And so in fiscal year 
2013, we have focused our dollars on the compensation and 
pension side of the system.
    Congressman Runyan had referred to the VBMS system, the 
Veterans Benefits Management System that we are rolling out 
right now.
    We believe that subject to availability of funding in 2014, 
there are improvements that could be made to the system. And we 
also are looking to identify funding inside of our 2013 budget 
still to provide improvements in the 2013 system.
    So the specific answer to your question, Congressman, is it 
is one of the first things we will fund in addition to what 
we're doing right now when we identify the available funding.
    Mr. Flores. Okay. Thank you.
    Would it be--I am going to ask you the same question I 
asked of Ms. Hall in the prior panel. Do you--in your opinion, 
would it be beneficial to--make the payments under the Post-9/
11 GI Bill under the similar protocols of the Montgomery GI 
Bill, essentially on a monthly basis?
    Mr. Baker. Let me defer that one to Mr. Worley.
    Mr. Flores. Okay. General Worley.
    General Worley. Mr. Chairman, thank you.
    It would simplify the debt issues that we've been talking 
about, and we'd be willing, of course, to work with the 
Committee on a proposal along those lines.
    Mr. Flores. Okay. In your written statement, you listed 
seven impediments that stand between you and 100 percent end-
to-end automation of GI Bill claims.
    Can you tell us what the plan is to overcome those seven 
impediments?
    Mr. Baker. I apologize, sir.
    Mr. Flores. I think it's on the PowerPoint that you 
presented to the staff, excuse me.
    Staff. It's the last page.
    Mr. Flores. Last page of the PowerPoint. Sorry about that.
    Mr. Baker. And I apologize. I am sure that is somewhere in 
the book here as well.
    My staff has laid out a plan and necessary funding to 
address the items around certificates of eligibility and to be 
able to automate those as well as making certain that we do 
maximum automation of the supplemental claims.
    I am not as familiar in depth with the pieces of this. I 
can tell you that in particular where certificates of 
eligibility are concerned, there are a number of systems that 
will need to be improved because the data quality is a key item 
as we look at certificates of eligibility.
    Today the reason that a person is so much in the loop with 
those is that if the data does not appear to be right, for 
example, about term of service or various items, they will go 
look in other areas to find that information.
    So automating that we believe is going to require more than 
just changes to the long-term solution system itself, but also 
to a lot of the data feeder systems that feed into that to make 
certain that we achieve quality results for these when they go 
through.
    I do know if there is any of the specific items, Mr. Worley 
handed me the slide, that you would like me to address in here, 
but the staff has laid out a plan for how do we address all of 
these in an automated system.
    Mr. Flores. I think since I have limited time, I am going 
to ask you, if you would, is to provide the Subcommittee staff 
with what it would take on each of the seven impediments, if 
you do not mind.
    Mr. Baker. We would be happy to do that.
    Mr. Flores. And that will, I think, satisfy the rest of 
that question.
    Do you have the PowerPoint in your package there? If you go 
to page nine, we had a question regarding our, and maybe 
somebody else will take this up because I have limited time, so 
I will go ahead and ask the question, and you can think about 
somebody else picking it up, what I need you to do is put your 
response in plain English for me so we can understand what the 
costs are with the process of automating the processing of 
original claims.
    So with that, my time has expired, and I will turn the mic 
over to Ranking Member Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    I am having trouble understanding the discrepancy in what 
you say is the average turn-around time for processing a claim.
    You say it's now seven days?
    Mr. Baker. In supplemental claims, I believe the latest 
number is six days of average time to complete supplemental 
claims processing from when it's submitted by the school into 
the online V.A.--ONCE system to when we put in the payment file 
to go to Treasury.
    Mr. Takano. The advocates for the students and the student 
vets, are saying that they experience six to eight weeks.
    Are we talking about two different things here?
    Mr. Baker. In hearing that, my thought was that I think 
we're talking sample size. For good or for bad, what the V.A. 
looks at is a half a million or more claims that are going 
through the system.
    Mr. Takano. Okay. So what--what--OK, so what percentage of 
the total claims are--how many--what percentage of our student 
vets are experiencing delays of six to eight weeks, would you 
say?
    General Worley. If I could try to comment on that, I don't 
have a percent of veterans who may be experiencing those 
delays.
    But we do track a lot of the statistics on days to complete 
a claim of the various benefit types and so forth, because 
clearly we want to do that as quickly and as accurately as 
possible.
    Today, or just yesterday, I asked for the percent of 
Chapter 33 supplemental claims that we have that are greater 
than 30 days old, and the answer to that is about 4 percent of 
them.
    On original claims, it's a higher number, which is, as Mr. 
Baker pointed out; it takes more development in many cases to 
establish the eligibility.
    Mr. Takano. Excuse me. So was Mr. Dakduk speaking about 
original claims or supplemental claims? Because I'm now 
learning this new vocabulary of supplemental and original.
    General Worley. He may have been talking about both. The 
first step is to get the original claim in, which provides a 
certificate of eligibility and in some cases, those come in 
without an additional supplemental claim, which is an 
enrollment, which are the actual certifications that result in 
payments to veterans.
    But the first step is to get the certificate of eligibility 
which takes a little bit longer. So it----
    Mr. Takano. I mean, on the supplemental claims, can you 
give me an average number definitively?. I mean, the data must 
exist on when claims are processed or not processed.
    So on original and supplemental claims, I would imagine you 
should be able to provide the Committee with information about 
what percentage of the claims are taking six weeks long. Is 
that possible?
    General Worley. Yes, Congressman, that is possible. For 
original claims, I can tell you today it is about 30 days and 
that has been coming down. That is the average for processing 
an original claim for Chapter 33. And nationwide for all 
benefits, it is 29 days. For supplemental claims for Chapter 
33, as was pointed out, we are running about six days right now 
with automation.
    Mr. Takano. Now, is it accurate that we spent about $250 
million on this new system? It is mind boggling to me that we 
spent that much money on a system. Can you comment on the value 
or the amount of money spent for a custom software system? I 
may not know the market very well, but what can you say about 
that?
    Mr. Baker. I can certainly comment to that. I believe the 
number that we provided the Committee was $263 million----
    Mr. Takano. Right.
    Mr. Baker. --from start to the point we are right now. As 
we have rolled through building the system, it is a very 
complex set of rules that we process to inside the education 
system.
    I made the observation to someone while we were on break 
that the difference between a VA and an Amazon is if Amazon 
finds a rule, a business rule that they have that they do not 
like because of what they are doing in the system that would 
make the system hard, they can change the business rule. If it 
is in the law, we do not have that opportunity.
    And so we have built a system that processes claims to the 
law for education claims.
    I can speak a little bit to the IT side of this. I, you 
know, have a fair amount of experience in government. Not many 
IT systems in government deliver to the timelines and with the 
level of functionality that this system has without grossly 
exceeding their budget. And this system has not.
    So the question of is $263 million the right amount of 
money to spend on this, there is a huge difference between the 
way the government does these things and the way the private 
sector does.
    Mr. Takano. Thank you.
    Mr. Chairman, my time has expired.
    Mr. Flores. Thank you, Mr. Takano.
    Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chair.
    Just to follow-up on that line of questioning then, are 
there ways in which or laws in which we can improve upon the 
system understanding that, you know, we cannot be as quick as 
Amazon might be able to be, but are there things that we can be 
doing to improve the system under the current sort of 
architecture of which was created based on a law?
    Mr. Baker. Thank you, Congresswoman.
    I would just make two observations for you. One is, there 
are parts of the system that, if changes, fit inside of-- make 
the changes very quickly. When the law was passed in 2011, 
there was a requirement for a number of changes to occur within 
60 days. And because those impacted in the area that we call 
the rules engine, we were able to quickly make those changes 
and implement those within that timeframe.
    As we get to more extensive changes in the law and in the 
system, it then gets into the basic software of the system, and 
that does take a fair amount of time to change.
    We tried to build the system to accommodate the ability to 
make changes more quickly. But as I said in my testimony in 
January of 2010, that is not a miracle. You know, it will 
accommodate some things more than most IT systems, but 
certainly not everything.
    And so it really becomes a discussion between the business 
folks, the technology folks, and the folks writing the law of 
what is going to be easy to implement and what is going to be 
hard to implement and then the business choices along that 
path.
    I cannot give you a more fine-grained answer than that, 
although I will point out that this Committee, actually years 
ago, did the VA a huge favor by consolidating our IT 
organization into one appropriation. That has allowed us to 
make the kind of management changes that allowed us to deliver 
this system on time.
    The VA before that could never have delivered this system, 
not on time, not to any budget. They could not have delivered 
this system. So this Committee has a lot of credit for just 
putting that in place.
    Ms. Brownley. Thank you, sir.
    And just another question. It seems as though based on the 
earlier testimony and your testimony, there seems to be, we 
have not really reconciled, we are not in agreement, let's just 
say, between the VA and the stakeholders vis-a-vis our response 
time in order to fulfill these backlogs and what the claim time 
really is.
    And so if we were going to follow what you are saying the 
data is, and I think you mentioned there was a difference in 
sample sizes, then that leads me to think that there are 
pockets, regional pockets that are different, having the 
different response time if we are looking, you know, you are 
quoting the averages.
    So am I right in that and if I am, are there ways in which 
those can be identified?
    General Worley. Thank you, Congresswoman.
    I would address that by saying we are in a period of 
transition. I think many of the horror stories about delays 
happened in the fall semester of this past fall. The pending 
claims, if you will, that came in peaked at about 220,000. We 
did not have automation yet and we were struggling to keep up 
at that time.
    As we examined that problem, we turned our focus to the 
types of claims that actually pay our veterans. In other words, 
the certification of the supplemental claim as we call them. 
That let some of the original claims that were coming in for 
the certificates of eligibility that did not have an immediate 
enrollment with them, that let some of those claims age.
    Since the implementation of the automation, we have been 
able to, as you heard, process the supplemental Chapter 33 
claims very quickly and that percent started off at about 25 to 
28 percent of supplemental claims in the beginning of October. 
And today it is in the mid 40s consistently among all the 
regional processing offices, which is obviously a consistent 
growth in the percent that are automated.
    So that has allowed us to turn some of the manpower to the 
more aged claims and make sure that those are worked and come 
down.
    With the volume that we deal with, well, unfortunately 
there will be cases where mistakes are made or we do not get to 
something quickly enough. We will acknowledge that and fix it 
as quickly as possible. It is not acceptable to us to have 
someone waiting eight weeks or longer for their claim to be 
paid.
    Ms. Brownley. Thank you, sir.
    Thank you, Mr. Chair.
    Mr. Flores. Thank you, Ms. Brownley.
    Mr. Baker, one quick question for you. If we were to choose 
to go to the old Montgomery processing methodology, is it 
possible to change the system to accommodate that and how long 
would it take?
    Mr. Baker. Congressman, if I could get back to you, I would 
like to have the folks that know the system best give you an 
answer instead of me, if you will, guessing on that at this 
point.
    Mr. Flores. Okay. If you would. And we will do that and we 
will also send you some additional questions. We would ask the 
VA to get back to us as soon as possible on that.
    I will now recognize Mr. Takano for any closing remarks 
that he has.
    Mr. Takano. Mr. Chairman, thank you very much for this 
moment.
    I want to express the desire of the minority to work with 
the majority on helping to serve our veterans better. It is the 
least we can do for the service they have done for our Nation, 
and it is a great privilege to serve on this Committee with 
you, sir.
    Mr. Flores. Thank you, Ranking Member Takano.
    I have to concur with your comments. This is fortunately 
one of the Committees where we have good bipartisan 
relationships, I believe, to work cooperatively for the benefit 
of our Nation's veterans.
    In closing this hearing today, I would like to ask the VA 
in the strongest terms possible to fund and develop the 
functions that were listed by today's witnesses.
    I realize the demands of any IT system budget and 
development are significant, but it does not make sense, I 
think, that we have come so far and you said fairly clearly 
about the successes you have had, and it seems like it is 
appropriate to go ahead and try to take that to the next level 
and add the capabilities that will lessen the number of calls 
to the Muskogee call center and to give our veterans and our 
schools the ability to monitor the benefits and as a result, 
improve the administrative processes for all concerned.
    I believe that this is an important model for other VA 
benefit programs and we intend to visit an RPO soon. And I 
would like to invite the Members and the staffs to join me, to 
take that trip with me, and we will be getting back with each 
of you very soon on that.
    If there is no further business, this hearing is adjourned 
with my thanks to our second panel, with all of our witnesses.
    Finally, I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks, include 
any extraneous material in the record of today's hearing.
    We are adjourned.

    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bill Flores
    Good morning. I want to begin by welcoming each of our new Members 
especially our Ranking Member, Mr. Takano, to the Committee. I also 
want to publicly thank Mr. Takano for agreeing to become an original 
co-sponsor of legislation I have introduced that will mandate the 
contents of the Transition Assistance Program (TAP).
    I realize everyone introduced themselves at the Full Committee 
organizational meeting but I think it would be good to do that again. 
With that said, I now recognize the distinguished Ranking Member.
    My thanks to each of the Members and I am looking forward to a 
productive and bipartisan 113th Congress.
    We are here today to review development and implementation of the 
computer system used to process Post-9/11 GI Bill claims and so a 
little history is in order. In the run up to passage of the new 
program, VA stated unequivocally that the system used for decades to 
process Montgomery GI Bill claims would not be able to handle the more 
complex Post-9/11 program. So, Congress authorized $100 million to 
develop a new system, what is now called the Long Term Solution, or 
LTS.
    Since the Post-9/11 GI Bill became law, this Subcommittee has held 
at least 7 hearings on the program including the new LTS. Until 
recently, our understanding was that the system is being developed to 
handle all Post-9/11 claims beginning with an original claim through 
supplemental claims.
    We now understand that the major development effort has focused on 
automating supplemental claims with comprise the bulk of the 
interactions between VA and the students and schools. I think in terms 
of a strategy, and I applaud VA for that decision which, this strategy 
has resulted in over 40% of supplemental claims being processed without 
human intervention. But like most things it also had negative results, 
because that decision left original claims relatively unautomated. As a 
result, an original claim still takes about 45 minutes to process, a 
time little changed from 2009.
    In short, we are supportive of VA's efforts related to the LTS and 
our focus today is looking forward towards the future and finish full 
development of the LTS. Without making the system and its information 
more accessible to veterans and schools, it is not complete. I would 
add to that the ability to provide a robust analysis function to enable 
VA and Congress to make better-informed decisions on education and 
training benefits in the future.
    VA has now spent about $286 million dollars on the LTS and without 
adding such functions, it would be like buying a new luxury car without 
air conditioning, heated seats, and a satellite radio. As our witness 
from NAVPA says in her testimony, ``LTS must continue to evolve so it 
is able to process more complex claims and changes.''
    With that, I recognize the Ranking Member for his opening remarks.

                                 <F-dash>
                 Prepared Statement of Hon. Mark Takano
    Thank you Mr. Chairman.
    Good morning, I would like to thank everyone for joining us today 
and I would like to thank our witnesses for taking time to testify and 
answer our questions.
    Mr. Flores, congratulations on being the new EO Chairman. I look 
forward to working with you to help our veterans and their families 
across our country. As our country begins to reduce operations in the 
Middle East and bring more our troops home we will need to have the 
right programs to address their needs.
    We have spent $263 million dollars on the Long Term Solution (LTS) 
and many questions still remain on the system's effectiveness, its 
completion and our return on investment. The system does not process 
all claims from beginning to end and there is quite of a bit of human 
intervention necessary to complete claims. When the VA first began 
processing claims with the Short Term Solution it took about 45 minutes 
to process an original claim. Years later with millions of dollars 
spent it takes about the same time to process an original claim. I do 
not see the anticipated gains that were visualized when VA and SPAWAR 
came here to our Subcommittee and testified before us. As always we are 
open to ideas on how to improve this custom designed system.
    Besides the cost and problems with the LTS we need to know where 
completion of the LTS ranks for VA. Is the LTS first on their IT 
priority list or has this now tumbled to bottom of the list? I hope VA 
came prepared today to discuss where they are in completing the LTS and 
what will be the remaining cost. I know Congress has made some changes 
to the GI Bill that required VA to pivot from their original plan to 
accommodate mid-stream changes. I would like to know the impact of 
these Congressional changes so that we have a complete picture of what 
has transpired since we began working on the LTS.
    The colleges and universities are reporting a number of issues with 
the system. I know that off-ramp problems have been an issue and there 
may be a simple solution to address the over 80 reasons that off-ramps 
occur. I look forward to what NAVPA has to say and how we can 
streamline payments to the colleges. I hope that we can figure out how 
we can streamline and improve functionality of LTS that is so 
fundamental to veterans for their education. This was the promise of 
the Act to them when it became law under Public Law 110-252 and it is 
our priority now as Members of this Subcommittee.
    I remain very interested to hear from the VA the details about how 
the provisions that have been implemented are performing, and how soon 
additional functionality will be implemented and what that will mean 
for processing times and improved services for veterans.
    Thank you, Mr. Chairman, for scheduling this hearing. I look 
forward to the testimony and discussion we will have today.

                                 <F-dash>
                  Prepared Statement of Michael Dakduk
    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee:
    Thank you for inviting Student Veterans of America to address the 
Subcommittee on ``Increasing the Functionality of the Post-9/11 GI Bill 
Claims Processing to Reduce Delays.''
    Student Veterans of America (SVA) is the largest and only national 
association of military Veterans in higher education. Our mission is to 
provide military veterans with the resources, support, and advocacy 
needed to succeed in higher education and after graduation. We 
currently have over 750 chapters, or student veteran organizations, at 
colleges and universities in all 50 states that assist veterans in 
their transition to and through higher education. SVA chapters are 
organized at four-year and two-year public, private, nonprofit, and 
for-profit institutions of higher learning. This diverse and direct 
contact gives SVA a unique perspective on the needs and obstacles faced 
by our nation's veterans as they utilize educational benefits in 
preparation for their future transition into the civilian workforce. 
This on-the-ground perspective, which comes from every corner of this 
nation, and our experience in supporting thousands of GI Bill 
beneficiaries, provides the framework for our testimony regarding the 
Long Term Solution and other recommendations regarding improvements for 
the processing of the Post-9/11 GI Bill.
    The Long Term Solution (LTS), a proposed fully automated end-to-end 
processing system for the Post-9/11 GI Bill, being implemented by the 
Department of Veterans Affairs (VA) has been a topic of discussion 
since 2010. While the LTS is a behind-the-scenes, information 
technology (IT) system being rolled out in phases, SVA has concerns 
with the lack of real-time information currently being provided to 
student Veterans. We have routinely called for a secure, web-based 
single portal system that allows student Veterans to see the status of 
their GI Bill claims in real-time. Currently, student Veterans are only 
able to track the status of their claims by calling the GI Bill hotline 
or interfacing with their school certifying official.
    The GI Bill hotline has elongated wait times and during periods of 
heavy call traffic the automated system instructs student Veterans to 
call back at a later time. This process is highly inefficient and 
extremely frustrating to Veterans. The LTS should include a single 
portal where student Veterans can access and view in real-time the 
status of their GI Bill claims. By providing instantaneous information, 
student Veterans can make well-informed life decisions based on the 
timely, or untimely, processing of their GI Bill benefit. We recommend 
the real-time tracking of GI Bill claims be housed in eBenefits, the 
current single portal system used for all VA benefits and claims.
    The other option for gaining information on the status of a 
Veteran's GI Bill claim, and often the most consistent, is for a 
student Veteran to connect with the school certifying official (SCO) on 
campus. SCO's have a private, and by most accounts, reliable hotline 
for delayed GI Bill claims. However, this is not a long term solution 
for the timely processing of the GI Bill. SCO's should have access to a 
system that allows them to submit certifications of enrollment in a 
streamlined manner and, most importantly, follow the status of a 
student Veteran's claim in real-time. Since SCO's interact with student 
Veterans on a regular basis, they are often inundated with questions 
about the status of a student Veteran's GI Bill claim. While most SCO's 
go above and beyond the responsibilities of their position to provide a 
student with an appropriate answer, they are clearly overburdened. They 
must be provided with the adequate systems to process and view the 
status of a student Veteran's claim. We recommend that SCO's be 
provided the appropriate real-time access to the status of GI Bill 
claims utilizing 21st century web-based technology.
    Both the student Veteran and SCO portal we propose is not a concept 
unknown to the public or private sector. We liken the concept to that 
of the U.S. Postal Service, FedEx, or UPS. All major shipping services 
have near real-time tracking of packages worldwide. Not only are 
customers notified of an estimated time of delivery, but when a hiccup 
occurs in the delivery of a package, the receiving customer is notified 
in a timely manner and given a new delivery time. It is difficult to 
grasp, in a technology-rich society, why the timely processing of the 
Post-9/11 GI Bill is still a subject of concern. Equally disturbing is 
the inability of student Veterans to access the status of their claims 
in real-time. Information Technology systems that are customer-service 
based and oriented toward serving the student Veteran must be included 
in the LTS.
    Student Veterans of America is grateful for the opportunity to 
provide this testimony. We thank the Chairman, Ranking Member and the 
Subcommittee members for their time, attention, and devotion to the 
cause of strengthening the GI Bill process. We look forward to 
continuing to work with this Subcommittee, the House Veterans' Affairs 
Committee, and the Congress to ensure the success of all generations of 
Veterans through education.
    Thank you for allowing Student Veterans of America to participate 
in this important Hearing.
Executive Summary
    <bullet>  THE LONG TERM SOLUTION (LTS) SHOULD INCLUDE REAL-TIME, 
WEB-BASED INFORMATION ON THE STATUS OF A GI BILL CLAIM
    <bullet>  REAL-TIME TRACKING OF GI BILL CLAIMS SHOULD BE PROVIDED 
TO STUDENT VETERANS AND SCHOOL CERTIFYING OFFICIALS
    <bullet>  THE STUDENT VETERAN GI BILL CLAIMS TRACKING PROCESS 
SHOULD BE HOUSED IN EBENEFITS, THE MAIN PORTAL USED FOR ALL BENEFITS 
AND CLAIMS
    <bullet>  STREAMLINING THE GI BILL CLAIMS PROCESS WILL INEVITABLY 
TAKE TIME, BUT PROVIDING NEAR REAL-TIME INFORMATION ON THE STATUS OF A 
CLAIM SHOULD NOT
    <bullet>  PROVIDING UP-TO-DATE GI BILL INFORMATION ALLOWS STUDENT 
VETERANS TO MAKE BETTER LIFE DECISIONS THAT MAY AFFECT THEIR ACADEMIC 
STUDIES, CAREERS AND FAMILIES

                                 <F-dash>
                     Prepared Statement of Kim Hall
    Chairman Flores, Ranking Member Takano, and members of the 
Subcommittee on Economic Opportunity, the National Association of 
Veterans Program Administrators (NAVPA) is pleased to be invited to 
provide comment on the topic of increasing the functionality of the 
Post 9/11 GI Bill claims processing. NAVPA's membership is comprised of 
educational institutions from all sectors with an organizational 
commitment to advocating for what is in the best interests of student 
veterans at our institutions. Our expertise lies in the administration 
of veterans' education programs at colleges, universities, and other 
education providers and most of our members also serve as School 
Certifying Officials for VA education benefits. NAVPA is a voluntary 
organization with a primary mission to provide training and 
professional development to member institutions, collect and 
disseminate best practices surrounding support for student veterans and 
military members, and advocate on behalf of students and our 
institutions. Our organization represents close to 400 educational 
institutions nation-wide and our leadership is comprised of non-paid 
staff members. We voluntarily serve NAVPA in an effort to better serve 
the veterans on our campuses.
    The Post 9/11 GI Bill (Chapter 33) is an incredibly generous and 
complicated benefit program. The level of detailed, often manual work 
required of School Certifying Officials is frequently overwhelming. 
There are a number of things we believe could be done to ease the 
burden on SCOs and on VA processors to make this a more streamlined and 
manageable process.
Regulations and Policy Guidance:
    We must have regulations for the GI Bill law passed over 2 years 
ago (PL 111-377). Schools are being held liable for overpayments by 
policies that are not in alignment with existing regulations and 
schools are expected to comply with legislation that has not been 
regulated. VA attempts to manage the implementation of the changes in 
PL 111-377 via policy statements but these are not well or consistently 
communicated to all educational institutions. We continue to ask for an 
online archive of all policy and procedural changes since it seems 
difficult to push information out to the field and schools through VA 
communication channels.
VA Once/IT Concerns:
    The VA Once certification data entry system still requires schools 
to upload data multiple times for the same student, one student at a 
time - there are no batch uploads, certifying officials are advised to 
input only one change per day for each student to insure they are 
received correctly at the Regional Processing Office, and the ability 
to modify, update or correct some inputs is severely limited if not 
impossible to do electronically. We still must rely on paper forms to 
report some situations clearly or resort to duplicate certifications - 
one example comes from recent ELR guidance reminding schools that they 
cannot make any changes to a terminated certification and that the only 
option is to completely recertify the term with explanatory remarks. As 
a very senior certifying official wrote recently, ``We should be able 
to correct anything that we send to the VA via VA-ONCE to keep it clear 
and clean.'' Data entry limitations result in a great deal of extra 
work on the part of the already heavily burdened SCO. Limitations on 
data inputs via VA Once and the set of standard remarks available do 
not allow for all reporting scenarios and needs.
Payment Processing Issues:
    Ch 33 claims processed by the LTS' automated functionality are now 
paid very quickly - as soon as five work days from submission from our 
observation. But this is still a minority of supplemental claims and 
includes no original claims. LTS must continue to evolve so it is able 
to process more complex claims and changes.
    Certificates of Eligibility are NOT the same as authorizations for 
payment as used under Ch 31 or military Tuition Assistance. COEs do not 
represent a guarantee of payment at a set amount, but rather a 
statement of general eligibility for a program. The VA still can pay 
all or a portion of reported charges based on a number of possible 
criteria and situations. Many schools are nonetheless willing to defer 
student bills until GI Bill tuition and fee payments arrive, but some 
are not. Some are even willing to disburse other aid while awaiting GI 
Bill funds. The number willing to do so would likely decrease 
dramatically if funds were to be sent to the student rather than the 
school, a situation that would result in even less confidence in the 
eventual payment of charges.
    Since SCOs and business offices are expected to know whether they 
have been paid correctly by VA - and must reconcile payments so they 
know what to do with balances on student accounts, they must be taught 
payment processing rules and policies - how to calculate a prorated 
payment based on a reduction in hours after the start of term, for 
example. Only by understanding this level of detail can the school be 
assured that payments - and debts/overpayments - are correct.
    As long as VA requires schools to report every change in enrollment 
or charge, waiting till the end of term to submit tuition and fees will 
not help reduce the number of adjustments or amendments required, but 
will rather compress them into a very limited time period rather than 
submitting them as they occur throughout the term. The only way to 
reduce the reported 50% of the claims backlog that results from 
adjustments is to convince students not to change their schedules. 
Every one of these changes has to be reported - individually - and, as 
mentioned previously, on separate days to be sure that the data arrives 
at VA intact.
Overpayments and Debt Collection:
    The RPOs should communicate with schools prior to sending school 
debts to the VA'S Debt Management Center for collection. There should 
be agreement on both the rationale and amount of the overpayment before 
the DMC starts collection processes. The VA's review in 2011 of 
outstanding 2009-2010 overpayments was obviously flawed as the DMC 
suspended collection on over 800 of these debts and many, many schools 
reported offsets taken for debts that were already paid or previously 
reassigned to the student by the RPO.
    The US Treasury Offset Program procedures MUST be changed to 
prevent multiple agencies from offsetting the same debt simultaneously. 
A system that only allows a weekly update of offset-eligible VA debts 
is irresponsible. This has caused enormous confusion, frustration, and 
effort on the part of institution to track and reconcile inbound 
payments and offsets from multiple non-VA-related federal sources 
including the refunds of erroneous or duplicate offsets taken.
Redundant/Useless Reporting Requirements:
    Eliminate useless school reporting requirements such as graduation 
- data collected through that process is incomplete and providing 
highly inaccurate view of veteran completion rates. Also, while an 
admirable goal, reporting students on probation so that VA can send a 
letter reminding them that they have tutoring, counseling, and advising 
available to them seems a less than optimum use of resources since 
schools already work closely with students on probation status. These 
VA and SCO resources could be better utilized elsewhere.
Data Sharing:
    It seems unreasonable in this IT-driven age that the four Regional 
Processing Offices cannot see electronic files in each other's 
jurisdiction. This lack of visibility requires additional form 
submission by veterans if their initial application was processed and 
their Certificate of Eligibility issued by one RPO but the veteran 
decides to enroll in a school in another region. Veterans cannot 
reasonably be expected to know what RPO their forms are processed in 
nor that they must notify VA when they move from one RPO to another. 
The Education Call Center staff in Muskogee has visibility on veteran 
files from all four regions - why not all four RPOs so that this 
additional paperwork and delay on claims processing can be avoided.
    There is still no school access to real-time eligibility and 
payment data for students using the Post 9/11 GI Bill - our most long-
standing request. This significantly impacts schools' ability and 
willingness to extend financial protection or courtesy for student 
veterans. Schools' initial experiences with the Post 9/11 GI Bill 
including the recent debt collection efforts have not served to build 
confidence in the program or its accurate implementation. Only direct 
access to data will change this
Benefit Recommendation:
    There needs to be a change to the net-cost consequences for those 
veterans at less than 100% eligibility for Ch 33 who cannot combine 
federal or other restricted aid programs to get 100% of their costs 
covered. When VA pays after all others, and only a percentage of what 
remains, the veteran can never get all charges paid for, even with 
multiple available programs. This is unfair to these individuals, 
primarily Guard and reserve members/veterans. Ch 33 rules should allow 
for payment of the veteran's net-cost not to exceed the full cost 
multiplied by the veteran's eligibility tier.
    Mr. Chairman, members of the subcommittee, thank you again for the 
opportunity to contribute these statements on behalf of the National 
Association of Veterans Program Administrators. Our organization stands 
ready to assist in all efforts to better support the women and men who 
have served this nation. We thank you for your continued leadership on 
issues of critical importance to America's veterans. NAVPA would be 
happy to respond to any questions you may have.

                                 <F-dash>
                  Prepared Statement of Hayleigh Perez
    Chairman Flores and Respective Committee Members, thank you for the 
opportunity to testify before your subcommittee today.
    My name is Hayleigh Perez. As a female Veteran having served on 
active-duty in the U.S. Army, a wife and mother, a student Veteran, and 
currently the Vice President of Social Media with the Student Veterans 
Advocacy Group, I feel very proud to be here speaking on such a 
relevant topic effecting thousands of student Veterans around our 
country today.
    The words, ``Freedom isn't free'' are so very true, yet our 
Veterans today seem to be so demonized as though we are asking for 
something that's not already ours. Our Veterans should never have to 
ask, and sometimes beg for the very things we were promised for the 
sacrifices made to protect our great nation.
    As in any good business...taking care of those whom take care of 
you, builds strength we all benefit from. While the economy is tough, 
statistics prove that taking care of our Veterans through the benefits 
promised to them, yields one of the highest return on investments of 
any others out there...period. By doing so, our Veterans are given the 
square deal promised to them, which yields such a high return that will 
benefit the rebuilding of our local, state, and national economy as a 
whole.
    Theodore Roosevelt once said, ``A man who is good enough to shed 
his blood for the country is good enough to be given a square deal 
afterwards.''
    Based on research and assessments many universities as well as our 
organization have been able to work on regarding the number of Veterans 
whom are enrolling at a school of higher education due to interrupted 
studies resulting from active-duty service, and those whom are 
enrolling for the first time, we have determined:

    <bullet>  Prior to 2011, nearly 75% of student Veterans were using 
the GI Bill to complete their education after interruptions from 
active-duty service obligations.
    <bullet>  After 2011, only based on information we've collected 
from various service-members whom have only served in the military 
after 2008 and recently having completed their active-duty service 
obligations, approximately 67% of them are attending a traditional 
classroom setting in a two-year or four-year college for the first 
time.

    According to American Counsel on Education (ACE) research:

    <bullet>  ``only 64% of Post-9/11 GI Bill beneficiaries who 
responded to surveys anticipated they could finish their degrees on 
time. Under the Post-9/11 GI Bill, qualified veterans are allowed 36 
months to complete their education. To accomplish this, veterans 
specified that courses must be made available when they need them and 
cited the importance of receiving academic credit for military service 
and training. The main two factors that contribute to graduating on 
time are course availability and course credit.''
    <bullet>  Because of the size of their student populations, course 
availability is a larger concern at public universities. Veterans get 
the courses they need by taking approved classes at accredited schools 
near their primary institution.''
    <bullet>  According to an ACE survey, only 47% of veterans who made 
an attempt to transfer credits were satisfied with the results. 
Veterans most often receive course credit for degree programs at 
private schools by finding allies such as academic advisors and 
professors who advocate on their behalf and initiate appeals. This 
helps them transfer more course credit and ensures that they will 
graduate on time.''

    There are considerable challenges and obstacles facing student 
Veterans today different than in times past. Such challenges our 
student Veterans are facing today are a result of the short-sited 
decisions being made by the Federal, and some State governments due to 
the financial hardships facing our Nation. History has proven post-war 
is the worst recession, and best economical boom our Nation 
experiences, versus other time-periods. Part of such success is due to 
the positive impact educating our Veterans has on the economy, which is 
paramount to the growth needed today.
    Many Veterans are finding it extremely difficult to adjust back to 
civilian life for a multitude of reasons. Let's keep in mind a big 
difference with the ten-year war in Iraq and Afghanistan contrary to 
past wars, is that our service-members have survived at a higher rate 
than prior wars. Of course, that's a blessing, but it also precipitates 
a much greater need for preparation and care at home our nation wasn't 
ready for.
    As a result of the unanticipated transitional difficulties from the 
backlog of delayed processing of VA claims: many service-members, 
Veterans, and families thereof, are suffering from unforeseen hardships 
that could otherwise be avoided.
WHAT ARE THE ISSUES?
Processing Delays
    Student Veterans are often faced with extreme financial hardships 
when transitioning into school for the first time, starting new 
semesters, or changing schools or programs. When following up with 
their paperwork, student Veterans often realize they and the 
Universities have done everything on their end to ensure timely 
processing of claims - though months often pass with no payment and no 
answer from VA as to the reasoning for such delay.
    The way by which current VA GI Bill claims are being processed 
needs significant improvements. Many of our nations student Veterans 
are relying on their earned GI Bill benefits for groceries, child care, 
bills, etc., and the delinquency by which these funds are being 
disbursed, or not, are often times life-altering causing some 
consequences as extreme as leaving some student Veterans homelessness.
    A fellow student Veteran, Juan M. Beltran from Silver Springs, 
Maryland wrote to our organization, stating:

    ``There is a little known book called, When the War Comes Home by 
Aaron Glantz. In his concluding chapters, Glantz speaks to the uphill 
battles veterans have had in obtaining Veterans benefits over the past 
60 years, battle that undoubtedly continues.

    ``Members of Congress and bureaucrats at the Pentagon and the 
Department of Veterans Affairs may not be attacking vets with mortars 
and IEDs, but they are literally killing them with indifference'', 
Glantz writes on page 212.''

    This past semester, beginning Graduate school, I experienced this 
first-hand. When I first contacted the VA in January, I was told there 
was not even a record of my attending Graduate school, which I began 
attending a week earlier. After resubmitting the same documents I sent 
already sent in November of 2012, I was told to follow-up in a week. 
After calling the VA every week for over 5-weeks I finally made it 
through the never ending hold-time with the VA and spoke to a very nice 
woman by the name of Yvonne, whom located all of the information and 
forms I'd already filed in November of 2012 in addition to all of my 
inquiries, whereby she was able to actually process my book-stipend and 
housing allowance payments. Within a few days I received the funds I 
was owed, my certificate of benefits from the previous school I'd never 
received, as well as the one I needed for Graduate school.
    The prevailing question our organization posed with respect to the 
similar issues thousands of student Veterans have been, and are 
currently facing was:

    Why was Yvonne able to resolve my GI Bill issues while the 4 other 
VA representatives I previously spoke with not able to?

    I asked this question of Yvonne when discussing my issues and was 
told the VA Educational Assistance Department is currently using two 
different software programs that cannot communicate with one another. 
Therefore, if my information was entered into one program but not the 
other, the representatives working with the other software program 
cannot assist me because they can't find my information, while it all 
resides within the other software program.
Potential Solutions
    1. Consolidate the two software programs currently being used by 
the VA Educational Assistance Program to one standard software program.

    By consolidating the software programs to one standard program, all 
VA representatives would have equal access in addressing any GI Bill 
beneficiary claims issue, whereby resolving beneficiary problems in a 
more timely manner. This would also assist in maximizing productivity 
for the VA and its representatives, while reducing the financial burden 
facing thousands of student Veterans. The outcome of applying this 
would be a considerable cast-savings measure to both the GI Bill 
beneficiaries as well as the Department of Veterans Affairs, which 
would certainly help reduce spending for our Federal Government.

    2. Re-education and certified training for all VA representatives, 
in addition to required annual training for changes and updates to the 
software program being utilized by the VA.

    This is one of the largest observable downfalls with respect to 
current deficiencies in how the VA processes GI Bill education benefits 
claims.

    3. Education and re-training of all VA representatives on all 
forms, past, present, and future, of the GI Bill (chapter 30, 33, etc).

    Many emails the Student Veterans Advocacy Group receives from 
student Veterans complain about the lack of GI Bill knowledge one would 
think is necessary in order to work in the Educational Assistance 
Program for the VA.

    4. Each Student Veteran should have a VA representative assigned to 
them on a local, state, or regional basis.

    By assigning each GI Bill beneficiary an individual representative 
for their claim, communication would be far better, and personable as 
well. Being able to contact or email an individual representative would 
help reduce the debilitating complaints currently stagnating the VA. 
This measure can additionally ensure more compliance, accountability, 
and continuity are being met by the VA.
Conclusion
    Our society today is overstated with the ``blank-checks'' it offers 
to one group or another. The difference between student Veterans and 
other groups is that they're not asking for any more, or less, than 
what's owed them for their sacrifices in-service to protect our nation. 
We're not asking for a hand-down, hand-up, or hand-out. Rather - we're 
merely asking for the benefit we've fought for, died for, and earned, 
in defending the freedoms our great nation continues to enjoy.
    Have we really fallen so far from where America once was that we 
resolve ourselves to believe if we're not personally affected, then it 
doesn't matter? While in many ways having become disenfranchised with 
some of the questionable actions by our government I can still honestly 
say that I would sacrifice my life to secure the liberties and freedoms 
we have in America. So, is really too much to ask that our government 
fulfill its' obligations, as intended, to our service-members and 
Veterans?
    To this end, you (Members of the House Sub-Committee on Economic 
Opportunity of the House Committee on Veterans Affairs) have a 
tremendous opportunity to be heroes to the Veterans and families, whom 
have served our great Nation. With your dedication and leadership, our 
Veterans can be better able to assist in the future successes our 
economy and country so desperately need.
    Character is defined not just by what we say we're going to do, but 
what we do following what we say. As Theodore Roosevelt once said, 
``when making any decision, the best thing you can do is the right 
thing, the next best is the wrong thing, and the worst thing you can do 
is nothing.'' The right thing to do for our Veterans is reflected best 
through our actions, not rhetoric.
    Very Respectfully,

    Hayleigh Perez
    Vice-President
    Student Veterans Advocacy Group
    Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="325a534b5e575b555a4257405748725f4b414453551c5d4055">[email&#160;protected]</a>
    Website: www.studentveteransadvocacygroup.org

    Follow the SVAG at:

    Facebook: www.facebook.com/SVANC
    Twitter: www.twitter.com/Student--Vets

                                 <F-dash>
               Prepared Statement of Hon. Roger W. Baker
    Good morning Chairman Flores, Ranking Member Takano, and Members of 
the Subcommittee. I appreciate the opportunity to appear before you 
today to discuss the Department of Veterans Affairs' (VA) efforts to 
create and implement the Long-Term Solution (LTS) for processing Post-
9/11 GI Bill claims. Accompanying me today is Mr. Robert M. Worley II, 
Director, Education Service. My testimony will address the current 
status of education claims processing and the status of the 
implementation of the Post-9/11 GI Bill LTS.
    Most importantly, we can report to the Subcommittee and our 
Nation's Veterans that VA is currently processing supplemental claims 
for Post-9/11 educational assistance in an average of 7 days, a 
remarkable achievement given that we are in the peak enrollment period 
for the spring term. For comparison purposes, on this date in 2011, it 
took 19 days to process supplemental claims, in 2012, it took 14 days. 
As we go through the rest of my testimony, , the most important fact is 
that Veterans are receiving the payments they are due in a timely 
manner that supports their educational efforts.
    As the Subcommittee Members know, the Post-9/11 GI Bill is the most 
extensive educational assistance program authorized since the original 
GI Bill was signed into law in 1944. Secretary Shinseki and the entire 
Department are committed to making sure all eligible Servicemembers, 
Veterans, and family members receive this important benefit in a timely 
manner, so they can focus on what is most important - their education.
Background
    In June 2008, Congress passed the Post-9/11 Veterans Educational 
Assistance Act, which established a new education benefit program under 
chapter 33 of title 38 United States Code, which VA refers to as the 
``Post-9/11 GI Bill.'' Upon enactment, VA had approximately 13 months 
to develop a new, highly complex eligibility and payment system for 
claimants eligible to receive benefits under this new program effective 
August 1, 2009. To meet this challenge, VA initially sought contractor 
support for development of an information technology (IT) system to 
process these claims. At that time, it was proposed that the contractor 
would be accountable for providing a technical solution and support 
that would allow VA to provide timely and accurate education claims 
processing by completing original claims within 10 days, supplemental 
claims within 7 days, while concurrently achieving a 98 percent 
accuracy rate. However, VA did not receive enough proposals from 
qualified private-sector contractors to create an IT program. . VA 
terminated the solicitation process and began development of an interim 
claims processing solution, using in-house resources, while 
simultaneously developing a long-term, rules-based processing solution 
in cooperation with the Department of Navy's Space and Naval Warfare 
Systems Center Atlantic (SPAWAR).
Program Executive Office
    To manage the development of the overall process for administering 
the Post-9/11 GI Bill, VA established a Program Executive Office within 
Education Service comprised of senior business-line managers, 
management analysts, individuals with program and project management 
experience, and administrative support. This office is responsible for 
coordination of all projects within the VA comprehensive management 
plan to successfully implement the Post-9/11 GI Bill.
Short-Term Strategy
    VA's short-term strategy to implement the Post-9/11 GI Bill 
consisted of a two-part IT solution: a fiscal payment system which used 
the Benefits Delivery Network (BDN) to issue payments and a ``Front-End 
Tool'' (FET) by VA claims examiners to use to augment the manual 
adjudication of claims. VA's Office of Information and Technology (OIT) 
designed the interim processing solution functionality in three 
separate phases. Each phase delivered a specific set of functionalities 
for claims examiners to manually process Post-9/11 GI Bill claims with 
some IT augmentation. The final phase of the Interim Solution was 
deployed in November 2009.
LTS Development
    While development of the short-term solution was ongoing, VA 
partnered with SPAWAR to develop a long-term solution for Post-9/11 GI 
Bill education claims processing--an end-to-end claims processing 
solution that utilizes rules-based, industry-standard technologies for 
the delivery of education benefits. The Post-9/11 GI Bill contains 
numerous, complex eligibility rules and benefit determinations that led 
us towards inclusion of rules-based technology to minimize human 
intervention.
    While VA initially planned to release the automated system in four 
major releases, two additional releases - one full year of systems 
development--were necessary to implement the changes to the Post-9/11 
GI Bill required by Public Law 111-377, the ``Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010.'' This law expanded 
the Post-9/11 GI Bill in many ways, to include non-college degree 
programs, modified the statutory tuition and fee payment provisions to 
allow VA to pay all in-state public school costs, and created a 
national cap for training pursued at a private institution.
    During the initial development, VA planned to include the following 
functionality in each respective release:
Release 1
    <bullet>  Processing original Post-9/11 GI Bill claims;
    <bullet>  Automated calculation of award payment;
    <bullet>  Automated calculation of overlapping term/interval 
awards;
    <bullet>  Demographic and service data from the VA/Department of 
Defense Identity Repository;
    <bullet>  Conversion and data transfer from the Interim Solution;
    <bullet>  Processing supplemental claims;
    <bullet>  Chapter 33 kickers (also known as the Army, Navy, or 
Marine Corps College Funds) and supplemental kickers; and
    <bullet>  Claims containing award amendments.
Release 2
    <bullet>  Award letter generation;
    <bullet>  Data Warehouse data feed; and
    <bullet>  Record security enhancement.
Release 3
    <bullet>  Interface with VA's Benefits Delivery Network for 
automated payments.
Release 4
    <bullet>  Expansion of previously released functionality and 
Veteran self-service capability to access and view the status of 
applications online.
Delivered Functionality
    VA has deployed six major releases of LTS, all of which were 
delivered on schedule according to the original timeline. Release 1 was 
deployed on March 31, 2010, and included the capability to complete new 
original claims; automatic calculation of awards including tuition and 
fees, housing, books and supplies, Yellow Ribbon, and Montgomery GI 
Bill - Active Duty and Reserve Educational Assistance Program kickers; 
and automatic calculation of awards for overlapping terms and 
intervals.
    VA deployed Release 2on June 30, 2010. This release allowed VA to 
process changes in enrollment information, claims for transfers of 
entitlement, and to generate various letters to beneficiaries. 
Additionally, data conversion from the Interim Solution FET database to 
the LTS occurred for Veterans determined eligible but had not yet 
enrolled. Release 2.1 was deployed on August 23, 2010. This release 
allowed us to retire the short-term, or interim, solution by fully 
replacing the functionality of the Interim Solution and associated 
manual processing tools.
    VA deployed Release 3 on October 30, 2010. This release provided 
enhanced enrollment processing and an interface with the VA Online 
Certification of Enrollment (VAONCE) system to allow information to 
pre-populate in LTS, which reduced keystrokes for claims examiners. 
This release was a critical step toward end-to-end automation.
     Release 4, which was deployed on December 20, 2010, provided the 
BDN payment interface and self-service capabilities for claimants to 
access and view their enrollment history and entitlement information 
through eBenefits. Release 4.1, deployed on January 16, 2011, converted 
Basic Allowance for Housing (BAH) payments to calendar year 2011 rates. 
Release 4.2, deployed on March 5, 2011, incorporated changes to tuition 
and fee and honorable service requirements as required by Public Law 
111-377. Note that the changes included in release 4.2 were 
accomplished within 60 days of passage of the Public Law.
    VA deployed Release 5 on June 4, 2011. This release included other 
changes required by Public Law 111-377, such as the annual tuition-and-
fees cap, housing for distance learners, books and supplies payments 
for active duty Servicemembers, and qualifying service for National 
Guard. Release 5.1 was deployed on October 17, 2011, and provided the 
remaining requirements of Public Law 111-377, including functionality 
for processing non-college degree programs, apprenticeship, flight, and 
on-the-job (OJT) training. In Release 5.2, deployed on February 21, 
2012, the architecture was expanded to allow for end-to-end automation 
of supplemental claims.
    Release 6.0 deployed on July 30, 2012 to provide end-to-end 
automation for supplemental claims and centralized letter-printing 
capability. It also included an interface with The Image Management 
System (TIMS), our electronic filing system. However, the automation 
feature was not fully deployed until September 24, 2012.
    Prior to the LTS initial release, it took claims examiners over 
one-and-a-half hours to process an original claim. Following the 
release, it takes approximately 45 minutes to process an original Post-
9/11 GI Bill claim.
Success of LTS
    The Chapter 33 LTS has been a significant success from an IT 
implementation perspective. It was one of the first large-scale system 
implementations in government to use Agile development methodologies, 
and the first completely new system to be developed under the VA's 
Program Management Accountability System (PMAS). Because of the volume 
of education claims and the limitations of the short-term solution, it 
was critical to VA, and to Veterans, that this system be delivered on 
time, and that it work correctly when delivered. Our people, processes, 
contractors, and technology met that challenge. As noted above, every 
major release of the Chapter 33 LTS system has been delivered on time, 
a feat nearly unheard of in government for such a large system. Under 
PMAS, the system has been required to deliver new functionality at 
least every six months, and it has met that challenge. Using Agile 
development methodologies has allowed us to readily adapt to changing 
priorities, from both business needs and new laws, by prioritizing new, 
urgent requirements ahead of other items on the requirements list. It 
has also helped enhance accountability in the IT development process, 
which allowed VA to better execute available IT funds. In an effort to 
achieve automation and meet the business sponsor's needs, there were a 
total of 33 releases that provided customer-facing functionality 
(combining 21 minor and 12 major releases). This translates into 
deploying new functionality at an average rate of one major release 
every two months. The Chapter 33 application is considered to be the 
first VA application to implement a true service-oriented architecture 
(SOA). As a result, it has helped VA lead the Government in the use of 
commoditized infrastructure services (Infrastructure as a Service 
[IASS]); and has also spearhead VA policy (regarding security, 
acquisitions, management) in the industry best practice of outsourcing 
infrastructure use of commercial and Cloud computing hosting services.
    The program was nominated for a 2012 Government Computer News (GCN) 
Award for excellence in federal, state, and local government IT 
projects and management teams to honor their ingenuity, organizational 
skills, and contributions to the public and is a finalist as Best 
Business Process Management (BPM) Project in the American 2013 Process 
Excellence Award.
    Four years ago, during my congressional office visits as part of my 
Confirmation, I consistently heard that VA IT would fail in 
implementation of the systems to support the Chapter 33 program. Today, 
the LTS system processes over 40 percent of supplemental claims within 
one day of receipt. From an IT perspective, from a business 
perspective, from a VA perspective, and most importantly from a Veteran 
perspective, the Chapter 33 LTS system is delivering real value for the 
investment made by the American taxpayers.
Automation
    End-to-end automation of claims for the Post-9/11 GI Bill was 
originally planned for June 2011, but enactment of Public Law 111-377 
required reprioritization of planned functionality to meet the law's 
effective dates. To meet the requirements of the law, end-to-end 
automation was pushed back by approximately one year.
    Calculation of benefits due under Chapter 33 is a complex process. 
LTS has over 1,600 calculation rules that support benefits for 
Veterans, Servicemembers, and transferees. Seven types of training are 
supported, which include graduate, undergraduate, non-college degree, 
correspondence, apprenticeship, on-the-job training (OJT), and flight. 
Up to six benefits are calculated per term including housing, books and 
supplies, tuition and fees, Yellow Ribbon, and additional DOD-funded 
``kicker'' payments foractive duty beneficiaries (Chapter 30 kickers) 
and for members of the Selected Reserve (Chapter 1606 kickers). LTS 
supports the entry of unlimited service periods, enrollment periods, 
and changes to enrollment periods.
    Currently, approximately 80 percent of all Post-9/11 GI Bill 
supplemental claims are automated - partially or fully. For the month 
of January, 2013, 44 percent of incoming enrollment documents (over 
149,000 documents) were fully automated and 36 percent (over 109,000 
documents) were partially automated. There are approximately 80 
business rules that support end-to-end automation of supplemental 
claims for the purpose of ensuring payment accuracy for Veterans. Each 
of these rules constitute a reason why a claim should not be fully 
automated and is exited for manual processing. When an issue is 
identified, automation is suspended to prevent payment errors and a 
manual review and/or entry is required to complete the remaining 
processing. We expect end-to-end automation to continue to improve 
overall claims processing timeliness and reduce delays in payment of 
education benefits.
Workload
    Processing timeliness has improved significantly since 
implementation of LTS. With the implementation of end-to-end automation 
and mandatory overtime at the regional processing offices, we reduced 
the number of pending Post-9/11 GI Bill claims from 177,000 in 
September 2012, to 62,000 in November 2012. The continued expansion of 
the automated functionalities in the Post-9/11 GI Bill processing 
system is already having an impact on improved benefits delivery. At 
the end of January we had approximately 86,000 claims pending, 50 
percent lower than the total claims pending the same time last year. 
The average days to process Post-9/11 GI Bill supplemental claims has 
decreased by 16 days, from 23 days in September 2012 to 7 days in 
January 2013. The average time to process Post-9/11 GI Bill original 
education benefit claims in January was 34 days.
Outreach
    On June 3, 2010, VA sent a notice to school certifying officials 
informing them that they may submit enrollment certifications for 
training pursued during the fall semester even if they do not know a 
student's actual tuition-and-fee charges. Upon receipt of the student's 
actual charges, the school certifying official was asked to submit an 
amended enrollment certification to VA with the corrected information. 
On December 7, 2010, school certifying officials were again told to 
submit enrollment certifications with $0 reported for tuition and fees 
if the tuition and fees charges had not been finalized for a student. 
School certifying officials have been encouraged by VA to continue with 
this practice for subsequent semesters because it ensures that our 
Veterans will receive timely payments for their housing allowance and 
books and supplies stipend while waiting for their tuition-and-fees 
charges to be finalized. While accepting enrollments without tuition-
and-fees charges has allowed VA to issue more timely payments of the 
monthly housing allowance and books and supplies stipend, there has 
also been an increase in the number of claims submitted because schools 
have to amend their original submissions to include tuition-and-fees 
charges.
Expenditures and Improvements
    Since inception, VA has issued over $25.9 billion in Post-9/11 GI 
Bill benefit payments to approximately 911,000 individuals and their 
educational institutions. The total lifecycle cost to develop the LTS 
system to date is estimated at $263 million, which represents one 
percent of the total benefits paid. For FY 2013, we are increasing end-
to-end automation of supplemental claims, with funding allocated to 
implement this feature at $4.4 million. LTS is also transitioning from 
development to a sustainment phase. The cost for sustainment of LTS in 
FY 2013 will be $18.7 million.
    Certain deferred functionality will be considered for 
implementation in future years. Some of the deferred functionality 
includes, but is not limited to: certificate of eligibility (COE) 
automation, multiple sources of entitlement, expansion of external data 
service capabilities, monthly certification of attendance, and business 
analytics.
    There are numerous challenges to COE automation including:

    <bullet>  Creating a streamlined electronic application that 
includes all the information necessary to process an original claim;
    <bullet>  Creating an interface between the application system and 
LTS;
    <bullet>  Verifying the identity of the individual submitting the 
application;
    <bullet>  Verifying and reconciling service data of the individual;
    <bullet>  Verifying attendance at a service academy;
    <bullet>  Verifying and accounting for entitlement used under other 
educational assistance programs; and
    <bullet>  Functionality to handle the benefit relinquishment and 
election issues properly.

    It would be a significant development effort to achieve end-to-end 
automation of all eligibility determinations.
Conclusion
    Veterans' well-deserved educational benefits are the vehicle by 
which many of our Nation's heroes pursue their educational goals and 
successfully transition to civilian life. VA is dedicated to ensuring 
that Veterans are able to make well-informed decisions concerning the 
use of their benefits and receive a quality education. We look forward 
to working with the Subcommittee to provide the very best support 
possible to our Veterans and beneficiaries as they pursue their 
educational goals.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Subcommittee may have.

                                 <F-dash>
                        Questions For The Record

    Letter From: Hon. Bill Flores, Chairman, Subcommittee on Economic 
Opportunity, To: The Hon. Eric Shinseki, Secretary, U.S. Department of 
Veterans Affairs

    February 27, 2013

    The Honorable Eric Shinseki
    Secretary
    U.S. Department of Veterans Affairs
    810 Vermont Avenue, NW
    Washington, DC 20420

    Dear Secretary Shinseki:

    On Thursday, February 14, 2013, the Honorable Roger Baker the 
Assistant Secretary for Information and Technology testified before the 
Subcommittee on Economic Opportunity during an oversight hearing 
entitled, ``Increasing the Functionality of Post 9/11 GI Bill Claims 
Processing to Reduce Delays.'' As a follow-up to the hearing, I request 
that the department respond to th following questions and provide the 
requested materials by no later than close of business on Tuesday March 
26, 2013.

    1. Several times in your response to the Subcommittee's pre-hearing 
questions, you stated that future releases and functionalities for the 
LTS would be subject to priorities in IT funding. Where does LTS fall 
in the IT priority list?

    2. In your written statement you listed seven impediments to 100% 
end-to-end automation of GI bill claims. What is your plan to overcome 
these impediments and when will they be completed?

    3. How do you respond to NAVPA's request that all four Regional 
Processing Office have access to veteran's education claim records 
regardless of the jurisdiction? Is this something that can be 
accomplished since the call center already has this same access?

    4. Please give us an update on when regulations will be promulgated 
for P.L. 111-377 which became law over two years ago.

    5. Please provide a clearer and more understandable response on 
slide nine to our pre-hearing question on the costs associated with 
automating the processing of original claims?

    6. Please provide to the subcommittee a full list of the top 20 
off-ramps for processing in the LTS. Also, please include which of 
these off-ramps you believe are the most significant and which off-
ramps you believe could be addressed in future releases of the LTS.

    7. Your response to pre-hearing question four and five states that 
LTS is ``transitioning from development to a sustainment phase.'' What 
does this mean and what additional functions will be accomplished with 
the $4.4 million stated in your response?

    8. The response to pre-hearing question number nine stated that 
with LTS release 4 veterans could access their remaining entitlement 
through e-benefits. Our understanding is that access through e-benefits 
is only possible if a student has a premium account which requires a 
student to provide ID verification at a VA facility. Why is this access 
limited to the premium account?

    9. The answers to pre-hearing questions 11 and 12 indicate that LTS 
will continue to rely on the Benefits Delivery Network (BDN) for 
payments. Why has this legacy system continued to be used and are there 
plans to replace the BDN with the Financial Accounting System tool?

    10. The response to pre-hearing questions 13 stated that VA would 
have to do further ``analysis of VA/DOD cross cutting systems.'' What 
are those cross cutting systems and what would be the specific analysis 
needed to further clarify the answer to questions 13?

    11. Has VA improperly collected money from the veteran and the 
school for the same debt?

    13. When will schools have the ability to batch uploads to the VA 
ONCE system?

    14. When will VA begin to process original claims with the LTS?

    15. Why does the U.S. Treasury program allow only a weekly update 
of offset eligible VA debts?

    16. If we asked you to make a change to the LTS do you have the 
authority to make that change?

    17. You state that it takes 34 days to process an original claim. 
Does this mean the veteran gets his/her money within 34 days?

    18. Some veterans are asking for a portal where veterans can access 
and view in real-time the status of their GI Bill claims. Is this at 
all possible?

    Your attention to these questions is very much appreciated. Ifyou 
have any further questions, please contact Mike Brinck, Subcommittee on 
Economic Opportunity Staff Director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="731e11011a1d1018331e121a1f1f5d1b1c0600165d141c05">[email&#160;protected]</a> or at 
(202) 225-3527.

    Sincerely,

    Bill Flores
    Chairman
    Subcommittee on Economic Opportunity

                                 <F-dash>
                 Post-Hearing Questions for VBA and OIT
    Question 1: Several times in your response to the Subcommittee's 
pre-hearing questions, you stated that future releases and 
functionalities for the LTS would be subject to priorities in IT 
funding. Where does LTS fall in the IT priority list?

    Response: At this time, OIT is unable to provide the ranking of 
future enhancements to LTS on the priority list of unfunded 
requirements. OIT is currently executing its FY 2013 funding for 
sustainment, development and pay/administration in accordance with the 
budget guidelines under P.L. 112-175, Continuing Appropriations Act, 
2013. VA prioritizes its unfunded IT requirements (UFRs) every fiscal 
year to provide flexibility in budget execution. If funding becomes 
available, the UFR list will be prioritized, reviewed, and OIT will be 
able to provide the status of funding for future enhancements to LTS.

    Question 2: In your written statement you listed seven impediments 
to 100% end-to-end automation of GI bill claims. What is your plan to 
overcome these impediments and when will they be completed?

    Response: The seven impediments to 100% end-to-end automation are 
as follows:

    1. Creating a streamlined electronic application that includes all 
the information necessary to process an original claim;

    2. Creating an interface between the application system and the 
Long-Term Solution;

    3. Verifying the identity of the individual submitting the 
application;

    4. Verifying and reconciling the service data of an individual 
claimant;

    5. Verifying whether a claimant has attended a service academy 
(which may affect entitlement to benefits);

    6. Verifying and accounting for entitlement to the Post 9-11 GI 
Bill when a service member has used other educational assistance 
programs (which may reduce entitlement to Post 9-11 GI Bill benefits); 
and

    7. Functionality to handle the benefit `relinquishment and 
election' issues properly (i.e., functionality to process and capture a 
service member's decision to transfer his benefit to a spouse or 
child.)

    In order to effectively address these impediments, updates and 
changes to a variety of programs and system interfaces will need to be 
made (``system interfaces'' are interfaces that allow data to be 
transferred from one program to another). Updating these programs and 
system interfaces will require considerable analysis and planning. This 
planning will be carried out within a formal planning framework that 
includes the development of a ``business requirements document''--a 
document that includes a detailed description and analysis of the 
current state of the systems and programs used to process Post 9-11 GI 
Bill claims, as well as a prioritized list and analysis of new 
functionality that is needed in order to accomplish the goal of an end-
to-end automation of Post 9-11GI Bill claims.
    Every year, the Veterans Benefits Administration (VBA) provides 
VA's Office of Information and Technology (OIT) with a list of requests 
for development support on its Information Technology (IT) systems and 
programs. This list encompasses all VBA-administered IT systems and 
programs, including those that support the administration of the Post 
9-11 GI Bill. Items on this list are prioritized in order of their 
importance and their impact on VBA's workload. Funding determinations 
for particular line items are made based on a strategic-level 
assessment of VBA's priorities.

    Question 3: How do you respond to NAVPA's request that all four 
Regional Processing Office(s) have access to veteran's education claim 
record regardless of the jurisdiction? Is this something that can be 
accomplished since the call center already has this same issue?

    Response: Under the Long-Term Solution (LTS), Regional Processing 
Offices can view and modify claims outside of their jurisdiction. 
Specifically, it is possible for designated users in one Regional 
Processing Office to access and modify an education claim record that 
is stored in The Image Management System (TIMS) of another Regional 
Processing Office. However, because the data stored in TIMS includes 
sensitive personal information on claimants (such as social security 
numbers), the ability to access and modify data across the 
jurisdictional boundaries of Regional Processing Offices is restricted 
to designated users. This restriction of access is done for privacy, 
policy, and claims-management reasons, not technical reasons.

    Question 4: Give us an update on when regulations will be 
promulgated for P.L. 111-377 which became law over two years ago.

    Response: Currently, the regulations for Public Law 111-377 are in 
the internal VA concurrence process.

    Question 5: Please provide a clearer and more understandable 
response on slide nine to our pre-hearing question on the costs 
associated with automating the processing of original claims?

    Response: When the Post 9-11 GI Bill became law, VA responded by 
developing plans to create an automated system to process claims. As 
part of the planning process, the development team identified the 
various functional capabilities that would be needed to efficiently and 
effectively process claims. These functionalities were then prioritized 
based on an assessment of the following two factors: (1) how important 
a particular functionality is to ensuring that claims can be processed 
efficiently and effectively, and (2) the time, cost, and difficulty of 
developing and deploying that functionality.
    A strategic decision was made to have the development team focus 
its resources on developing and implementing the functionalities at the 
top of the prioritized list. Though development activities centered on 
the items at the top of the prioritized list, the system was designed 
to enable developers to incorporate functionalities lower on the list 
at a later period, as time and resources allowed.
    The development plan prioritized the functionality for fully 
automating original claims lower on the list, because it was determined 
that greater claims-processing gains could be quickly realized by 
focusing development efforts on the automation of select supplemental 
claims. The context in which these judgments were made is important: 
When the Post 9-11 GI Bill became law, VA had very little time to 
develop a system to administer the new educational benefit before VA 
had to begin processing claims. Because of this time-constraint, VA had 
to develop a claims adjudication system that blended manual claims-
processing with automated claims-processing. The decision to prioritize 
the automation of supplemental claims over original claims was made 
because developers determined that the time and resources needed to 
create and implement a fully-automated system for original claims was 
far greater than the time and resources needed to automate supplemental 
claims.
    Original claims are currently partially automated. The cost 
estimate for the development of original claims automation is 
unavailable at this time.

    Question 6: Please provide to the subcommittee a full list of the 
top 20 off-ramps for processing in the LTS. Also, please include which 
of these off-ramps you believe are the most significant and which off-
ramps you believe could be addressed in future releases.

    Response: The attached list (Attachment 1) provides the top 20 off-
ramps that occurred in February 2013 in order of the most frequently 
off-ramped claims. While sufficient development would reduce the 
frequency of nearly all of the off-ramps, VA believes that development 
releases to reduce the number of VA-ONCE free-text remarks in 
enrollment certifications will have the greatest impact on automation. 
It should be noted that LTS has transitioned from a major initiative to 
a sustainment project. As such, there are no development releases 
currently planned. Any future releases of LTS will require IT 
development effort and funding.
    With its current functionality, LTS has fully automated over 
487,000 (more than 40 percent) of the supplemental claims received 
electronically since September 24, 2012. While the automation 
percentage varies daily, LTS recently fully automated over 53 percent 
of claims received in one single day.

    Question 7: Your response to pre-hearing questions four and five 
state that LTS is ``transitioning from development to a sustainment 
phase.'' What does this mean and what additional functions will be 
accomplished with the $4.4 million stated in your response?

    Response: The phrase ``transitioning from development to 
sustainment'' means that all planned and funded development objectives 
for the Long-Term Solution (LTS) have been met and, as a result, LTS is 
moving into a sustainment phase during which VA will continue to 
maintain the system but will not develop new functionality or 
enhancements to the system.
    The $4.4 million that is referenced in Question 7 has already been 
spent. These funds allowed VA to correct software defects in LTS; 
update business rules to improve the accuracy and the number of claims 
that are automated; centralize letter printing for automated claims; 
and add capability to allow call centers visibility into the Chapter 33 
claims process. Finally, the $4.4 million allowed VA to make 
modifications to ease the transition into sustainment.

    Question 8: The response to pre-hearing question number nine stated 
that with LTS release 4 veterans could access their remaining 
entitlement through e-benefits. Our understanding is that access 
through e-benefits is only possible if a student has a premium account 
which requires a student to provide ID verification at a VA facility. 
Why is this access limited to the premium account?

    Response: eBenefits offers over 47 self-service features to 
Veterans, Servicemembers, and eligible family members. Although most 
features require Premium access for the protection of the Veteran, 
there are some features that require only a Basic account. One of those 
features is the Post-9/11 GI Bill Enrollment Status. This feature 
allows both Veterans and eligible dependents to view entitlement and 
school enrollment information for Post- 9/11 GI Bill Education 
benefits.
    Most individuals that require Premium access may obtain it online 
by answering a few security questions to verify their identity. 
Servicemembers may verify their identity online by using their Common 
Access Card. For those unable to verify identity online, there are 
other options available such as telephone proofing, which allows those 
in receipt of VA benefits via direct deposit, to have their identity 
verified by calling 1-800-827-1000 and selecting option 7.

    Question 9: The answers to pre-hearing questions 11 and 12 indicate 
that LTS will continue to rely on the Benefits Delivery Network (BDN) 
for payments. Why has legacy system continued to be used and are there 
plans to replace the BDN with the Financial Accounting System tool?

    Response: When the LTS went into development, the Financial 
Accounting System was not ready to issue payments. As a result, the LTS 
relied on the BDN to meet the benefit payment roll-out demand. The 
decision to replace the BDN with the Financial Accounting System tool 
is one that would require a significant amount of work and time, which 
would necessitate the use of resources that are currently dedicated to 
other VA enterprise work.

    Question 10: The response to pre-hearing question 13 stated that VA 
would have to do further ``analysis of VA/DOD cross cutting systems.'' 
What are those cross cutting systems and what would be the specific 
analysis needed to further clarify the answer to question 13?

    Response: The two most important cross cutting systems are the 
Defense Manpower Data Center (DMDC) and the VA/DoD Identity Repository 
(VADIR). DMDC collects military service data and other information from 
DOD service organizations, and then transfers that information to 
VADIR. The LTS interfaces with VADIR to make eligibility determinations 
for Post 9-11 GI Bill benefits. The absence of various kinds of service 
information from VADIR impedes the ability to automate initial 
eligibility determinations in LTS. Therefore, a gap analysis needs to 
be performed to determine what additional information needs to be 
provided by DMDC to VADIR.

    Question 11: Has VA improperly collected money from the veteran and 
the school for the same debt?

    Response: Veteran and school debts are assigned unique identifiers 
when they are created. Accordingly, there should be no occurrences 
where money is collected from both the Veteran and the school and 
applied to the same debt. VA's Debt Management Center and Education 
Service are not aware of such an occurrence.

    Question 12: The official list of Questions for the Record provided 
by the Committee did not include a Question 12.

    Question 13: When will schools have the ability to batch uploads to 
the VA Once system?

    Response: The ability to perform batch uploads to the VA-ONCE 
system will require significant IT development. VA is currently 
defining the requirements and reviewing the funding needed for an 
improved VA-ONCE system, which would include this feature.

    Question 14: When will VA begin to process original claims with the 
LTS?

    Response: VA has been utilizing LTS to process original claims 
since its inception. For instance, nearly all calculations for original 
claims are automated; however, full end-to-end automation of original 
claims is currently not available. This feature will require major IT 
development effort and funding.

    Question 15: Why does the U.S. Treasury program allow only a weekly 
update of offset eligible VA debts?

    Response: VA sends updates to the U.S. Treasury three times a week, 
each Monday, Wednesday, and Friday, which provide updated balances on 
accounts that VA has referred to the Treasury Offset Program. 
Treasury's system is programmed to provide Federal Agencies a file of 
offsets once each week. VA receives Treasury's file each Thursday. Upon 
receipt, VA immediately applies the offsets collected to update 
balances on VA accounts.

    Question 16: If we asked you to make a change to the LTS do you 
have the authority to make that change?

    Response: Yes, VA has the authority make changes to LTS.

    Question 17: You state that it takes 34 days to process an original 
claim. Does this mean the Veteran gets his/her money within 34 days?

    Response: An eligibility determination is made when an original 
claim is processed, and does not necessarily require a payment when 
completed. However, if an enrollment certification is received with the 
original claim, a payment will either be deposited within 3-5 business 
days or received via postal mail within 7-10 business days after the 
claim is processed. This is in addition to the 34 average days to 
process the claim.

    Question 18: Some veterans are asking for a portal where veterans 
can access and view in real-time the status of their GI Bill claims. Is 
this at all possible?

    Response: VBA fully supports the ability of Veterans, 
Servicemembers, and eligible dependents to view the status of their GI 
Bill claim. VBA is reviewing the funding needed to support this 
feature, and will add it to the eBenefits Roadmap at the soonest 
possible date.
                              Attachment 1
                          Top 20 LTS Off-Ramps
                             February 2013
    1. REVIEW VAONCE REMARKS

    2. VALIDATION ERRORS DETECTED DURING AUTOMATED WORK PRODUCT

    3. CHANGE OF STUDENT ADDRESS SUBMITTED BY SCHOOL

    4. NEW FACILITY CODE FOR CLAIMANT

    5. WORK PRODUCT IN PROGRESS, ONE OR MORE ENROLLENTS/ADMENDMENTS 
HAVE BEEN ADDED TO THE VAONCE INBOX

    6. A CHANGE IN VADIR SERVICE DATA HAS BEEN DETECTED

    7. CLAIMANT'S ENTITLEMENT IS EXHAUSTED

    8. BDN END PRODUCT COULD NOT BE OPENED FOR CLAIMANT

    9. NCD ENROLLMENT RECEIVED FOR CLAIMANT

    10. CLAIMANT RECORD COULD NOT BE ACCESSED DURING AUTOMATED 
PROCESSING

    11. COE LETTER PRODUCED

    12. NO MATCHING ENROLLMENT FOR ADJUSTMENT

    13. CHANGE IN HOUR TYPE DETECTED

    14. VAONCE CLAIMANT FILE NUMBER DOES NOT MATCH LTS

    15. CHARACTER OF SERVICE IS NOT HONORABLE

    16. ONE OR MORE AWARDS TOO LARGE FOR AUTOMATION AUTHORIZATION

    17. NO LETTERS PRODUCED

    18. WORK PRODUCT REQUIRES REVIEW FOR SECOND SIGNATURE

    19. A CHANGE IN VADIR TRANSFER OF ENTITLEMENT DATA HAS BEEN 
DETECTED

    20. OLDER VAONCE CLAIMS(S) CANNOT BE AUTHORIZED WITH VAONCE CLAIMS 
RECEIVED AT THE SAME TIME OF AUTOMATED PROCESSING

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
